<html>
<title> - EMERGING THREATS: METHAMPHETAMINES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                   EMERGING THREATS: METHAMPHETAMINES
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2001

                               __________

                           Serial No. 107-81

                               __________

       Printed for the use of the Committee on Government Reform






  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                                _____________

                         U.S. GOVERNMENT PRINTING OFFICE
80-843                           WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
JOHN J. DUNCAN, Tennessee                (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               ------ ------
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Chris Donesa, Staff Director
                       Nick Coleman, Staff Member
                          Conn Carroll, Clerk
           Denise Wilson, Minority Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2001....................................     1
Statement of:
    Brooks, Ron, chairman, National Narcotic Officers 
      Associations Coalition; Douglas K. Dukes, sheriff, Noble 
      County, IN; Doug A. Harp, deputy sheriff, Noble County, IN; 
      Henry M. Serrano, chief of police, city of Citrus Heights, 
      CA; and John McCroskey, sheriff, Lewis County, WA..........   110
    Keefe, Joseph D., Chief of Operations, Drug Enforcement 
      Administration.............................................    71
    Rook, Susan, public affairs director, Step One...............   187
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia, prepared statement of..........................   223
    Brooks, Ron, chairman, National Narcotic Officers 
      Associations Coalition, prepared statement of..............   113
    Dukes, Douglas K., sheriff, Noble County, IN, prepared 
      statement of...............................................   164
    Harp, Doug A., deputy sheriff, Noble County, IN, prepared 
      statement of...............................................   168
    Keefe, Joseph D., Chief of Operations, Drug Enforcement 
      Administration:
        Followup questions and answers...........................    92
        Prepared statement of....................................    74
    McCroskey, John, sheriff, Lewis County, WA, prepared 
      statement of...............................................   131
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California:
        Article dated October 8, 2000............................     8
        Prepared statement of....................................    66
    Rook, Susan, public affairs director, Step One, prepared 
      statement of...............................................   189
    Serrano, Henry M., chief of police, city of Citrus Heights, 
      CA, prepared statement of..................................   144
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3





                   EMERGING THREATS: METHAMPHETAMINES

                              ----------                              


                        THURSDAY, JULY 12, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Ose, Gilman, and Cummings.
    Also present: Congressman Baird.
    Staff present: Chris Donesa, staff director; Nick Coleman, 
staff member; Conn Carroll, clerk; Conor Donahue, intern; Sarah 
Despres and Tony Haywood, minority counsels; Denise Wilson, 
minority professional staff member; Jean Gosa, minority 
assistant clerk; and Lorran Garrison, minority staff assistant.
    Mr. Souder. The subcommittee will come to order.
    Good morning, and thank you all for coming. We hope to 
concentrate many of our subcommittee's upcoming drug policy 
hearings around a few core issues posing fundamental questions 
and challenges to our efforts to keep America drug-free. This 
hearing is the first of a series on ``emerging threats.'' 
Narcotics and other drugs that are relatively new drugs of 
abuse or those which have dramatically increased as a threat to 
our communities. In examining these emerging threats, we hope 
to bring public attention to them for both policymakers and 
parents, as well as to consider whether existing drug control 
institutions and policies are adequate to address and combat 
them. In the near future, we hope to discuss such emerging 
threats as ecstasy and other synthetic drugs and abuse of the 
prescription drug Oxycontin. Today, however, we begin with what 
has quickly become a monumental problem for America throughout 
our Nation: methamphetamines.
    Methamphetamines, or ``meth,'' has quickly spread across 
the Nation to become one of the most pressing narcotics issues 
for State and local communities and law enforcement in those 
areas. I don't think that there is a member of this committee 
or of the House, particularly those who represent rural areas, 
who has not seen numerous and disturbing reports of small 
``Beavis and Butthead'' meth labs being seized in their 
communities. These labs are of immediate concern because they 
make almost every county in America its own source for a 
powerful drug of addiction with unpredictable effects--along 
with all of the accompanying negative consequences, including 
violent crime and environmental damage. Each pound of 
methamphetamine produced results in 5 to 6 pounds of toxic 
chemical waste, which is simply left to enter groundwater. It 
is difficult to control the growth of these labs because of the 
perverse economic incentives to push the drug--just $2,500 
worth of chemicals can make 4 pounds of methamphetamine with a 
street price of $163,000.
    But even these laboratories are the tip of an iceberg 
compared to the large-scale operations run by organized crime, 
predominantly in California and the Southwest United States. It 
is by no means an exaggeration to say that the State of 
California is, for all intents and purposes, a narcotics source 
country for methamphetamines. A large proportion of the meth on 
the streets of the United States is produced or transported in 
and through California. We face a tremendous national challenge 
in ensuring that not only California, but all 50 States, have 
adequate resources to combat this emerging threat. In addition, 
we must consider whether additional controls are necessary for 
precursor chemicals and other ingredients that are the key to 
the illicit trade. And we must examine whether our system 
adequately takes into account the special challenges of 
treating meth victims and addicts through prevention and 
treatment.
    I would also like to recognize and thank the House Meth 
Caucus, of which I am a member and with which we have worked to 
put together the hearing, particularly Congressman Calvert and 
Congressman Baird. I appreciate their bipartisan leadership in 
raising awareness of these issues and look forward to 
continuing to work with them.
    Today we have excellent witnesses to discuss emerging meth 
trends. From the administration, on our first panel is Joseph 
Keefe, Chief of Operations for the Drug Enforcement 
Administration. On our second panel, we will be joined by a 
number of knowledgeable State and local law enforcement 
officers. Ron Brooks is the chairman of the National Narcotics 
Officers Coalition, and has also been a good friend and 
resource for this subcommittee and a tireless advocate against 
illegal drugs. From Indiana is Sheriff Doug Dukes and Deputy 
Doug Harp from the Noble County Sheriff's office. They are our 
second set of witnesses from Noble County in our last two 
hearings; it may not surprise you to know that Noble County is 
in my district and has had a growing narcotics problem, but has 
been tackling it aggressively. From Congressman Ose's district, 
we have Chief Henry Serrano from Citrus Heights, CA. And at 
Congressman Baird's suggestion, we will hear from Sheriff John 
McCroskey from Lewis County, WA. Our third panel will discuss 
meth's effects on our families with Susan Rook from the Step 
One Center in North Carolina.
    Thank you all for coming. This should be an excellent 
hearing on an important issue, and I look forward to your 
testimony.
    I would now like to recognize Mr. Cummings for an opening 
statement.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.001
    
    [GRAPHIC] [TIFF OMITTED] 80843.002
    
    [GRAPHIC] [TIFF OMITTED] 80843.003
    
    Mr. Cummings. Thank you very much, Mr. Chairman. As you 
know, methamphetamine abuse is spreading across the country 
like a forest fire, and it is fast on the rise in the areas to 
which it has spread. Once concentrated almost exclusively in 
California, the manufacturing, trafficking, and the use of 
methamphetamine has expanded over the past decade and a half to 
many other areas of the country. Outlaw motorcycle gangs in the 
West and Southwest have been supplanted by professional Mexico-
based dealers and wildly dispersed independent producers as the 
primary traffickers of this drug.
    At the same time, meth use has become increasingly 
prevalent among segments of our Nation's youth. Although so-
called crystal meth made its appearance in major cities in the 
mid-Atlantic and the Northeast only 3 or 4 years ago, the rapid 
growth of the problem in the South, Midwest, and Northwest 
suggests that meth abuse in these areas will not long remain a 
mere blip on the radar screen. Needless to say, that is not 
good news for my home town of Baltimore, where heroin and other 
drugs, such as cocaine, already wreak havoc in far too many 
lives, and methamphetamine poses a serious additional threat.
    Indeed, one of the dangerous aspects of meth abuse is the 
tendency among users to couple it with other drugs, including 
heroin and alcohol. But meth use alone is dangerous enough in 
itself. Like crack cocaine, but the more long-lasting effects, 
methamphetamine targets the central nervous system, increasing 
the heart rate, blood pressure, body temperature, and rate of 
breathing. It can also produce fits of hyperactivity, euphoria, 
a sense of increased energy and tremors. Chronic and high-dose 
abuse can result in paranoia, hallucinations, schizophrenia-
like symptoms, and is often accompanied by violence and other 
criminal and anti-social behaviors. Indeed, in the areas of the 
country where meth use is prevalent news reports abound of 
meth-induced domestic violence, murders, suicides, thefts, 
burglaries, and other crimes.
    Compounding the health and social dangers of 
methamphetamine use are a host of other dangers that accompany 
its manufacture. Unlike other hard-core illicit drugs, meth can 
be, and often is, manufactured by an amateur chemist from a 
precursor of chemicals contained in legal commercial products. 
Home-made meth lends itself to a small-scale trafficking on the 
fringes of the meth market and accounts for much of the rapid 
spread of the meth abuse problem.
    The volatility and toxicity of the chemicals involved in 
such production, moreover, result in make-shift labs being the 
frequent sources of explosions, fires, and toxic damage to the 
environment. Children who reside in homes where these labs are 
operated are exposed to all of these dangers, and studies 
suggest an array of health problems in the newborn children of 
meth-addicted mothers traceable to maternal meth abuse.
    Finally, Mr. Chairman, I know how very concerned you are 
about the growth of the meth epidemic in Indiana and in the 
Midwestern region of our country. For the same reasons which I 
have just described, I want to make sure that my State of 
Maryland and the mid-Atlantic region are not similarly 
overtaken by methamphetamine abuse.
    I look forward to hearing from our witnesses about their 
experiences and how we can effectively combat the rapid spread 
of this problem. Thank you very much.
    Mr. Souder. Thank you. Congressman Ose, do you have an 
opening statement?
    Mr. Ose. Thank you, Mr. Chairman. Thank you for holding 
this hearing on an issue that generally is not getting the 
national attention it needs, and that is, as my colleague has 
said, the growth and use of methamphetamines. In the interest 
of time, I'm going to make a brief opening statement and ask 
unanimous consent that my full statement be entered into the 
record.
    Mr. Chairman, the growth and use of methamphetamines 
threatens every part of our society. Our communities and 
environment are endangered by those who use and make the drug 
around them, even as the drug destroys users and those around 
them. Combating meth has been one of my top priorities since 
coming to Congress. In fact, it predates even arriving here. 
Having been elected in early November 1998, by November 18 I 
had begged, cajoled, browbeat, and eventually persuaded the 
chairman of the full committee to put me on this subcommittee 
after 11 phone calls. I think Kevin Binger was very tired of me 
by the end of November 1998, but it is a pleasure to be on this 
committee.
    I plan to continue to work on this subcommittee. I am a 
member of the Congressional Meth Caucus. I am going to do 
everything I can to see that Congress acts quickly to address 
this issue.
    I want to thank the witnesses who are joining us today to 
talk about meth. I especially want to thank two that I have had 
personal experience with. The first is Ron Brooks, who is the 
Chair of the National Narcotic Officers Associations Coalition. 
Ron is on the second panel. His knowledge and personal 
experience have been an invaluable resource to me and my staff, 
and I am appreciative of it.
    And I am particularly pleased to welcome the chief of 
police from Citrus Heights; that is Henry Serrano. Henry is the 
chief of police in a city that I helped establish in 
California. Mr. Serrano's team protects my district, and they 
also have some insightful testimony today regarding some 
innovative strategies they are using in northern California to 
stop the spread of meth.
    As Mr. Cummings said, meth is a particularly large part of 
the drug crisis in California, and it would take hours to truly 
explore in detail what meth is doing in California. So, to 
expedite that, if you would, Mr. Chairman, I would ask 
unanimous consent to submit for the record an article published 
in numerous California newspapers last October titled, ``A 
Madness Called Meth.'' I have given each of the members a copy 
of it. It is a lengthy read. I do commend it to your 
consideration. It is quite informative, and it is from my home 
town newspaper. As they say in the media, they are a major 
Sacramento newspaper.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.004
    
    [GRAPHIC] [TIFF OMITTED] 80843.005
    
    [GRAPHIC] [TIFF OMITTED] 80843.006
    
    [GRAPHIC] [TIFF OMITTED] 80843.007
    
    [GRAPHIC] [TIFF OMITTED] 80843.008
    
    [GRAPHIC] [TIFF OMITTED] 80843.009
    
    [GRAPHIC] [TIFF OMITTED] 80843.010
    
    [GRAPHIC] [TIFF OMITTED] 80843.011
    
    [GRAPHIC] [TIFF OMITTED] 80843.012
    
    [GRAPHIC] [TIFF OMITTED] 80843.013
    
    [GRAPHIC] [TIFF OMITTED] 80843.014
    
    [GRAPHIC] [TIFF OMITTED] 80843.015
    
    [GRAPHIC] [TIFF OMITTED] 80843.016
    
    [GRAPHIC] [TIFF OMITTED] 80843.017
    
    [GRAPHIC] [TIFF OMITTED] 80843.018
    
    [GRAPHIC] [TIFF OMITTED] 80843.019
    
    [GRAPHIC] [TIFF OMITTED] 80843.020
    
    [GRAPHIC] [TIFF OMITTED] 80843.021
    
    [GRAPHIC] [TIFF OMITTED] 80843.022
    
    [GRAPHIC] [TIFF OMITTED] 80843.023
    
    [GRAPHIC] [TIFF OMITTED] 80843.024
    
    [GRAPHIC] [TIFF OMITTED] 80843.025
    
    [GRAPHIC] [TIFF OMITTED] 80843.026
    
    [GRAPHIC] [TIFF OMITTED] 80843.027
    
    [GRAPHIC] [TIFF OMITTED] 80843.028
    
    [GRAPHIC] [TIFF OMITTED] 80843.029
    
    [GRAPHIC] [TIFF OMITTED] 80843.030
    
    [GRAPHIC] [TIFF OMITTED] 80843.031
    
    [GRAPHIC] [TIFF OMITTED] 80843.032
    
    [GRAPHIC] [TIFF OMITTED] 80843.033
    
    [GRAPHIC] [TIFF OMITTED] 80843.034
    
    [GRAPHIC] [TIFF OMITTED] 80843.035
    
    [GRAPHIC] [TIFF OMITTED] 80843.036
    
    [GRAPHIC] [TIFF OMITTED] 80843.037
    
    [GRAPHIC] [TIFF OMITTED] 80843.038
    
    [GRAPHIC] [TIFF OMITTED] 80843.039
    
    [GRAPHIC] [TIFF OMITTED] 80843.040
    
    [GRAPHIC] [TIFF OMITTED] 80843.041
    
    [GRAPHIC] [TIFF OMITTED] 80843.042
    
    [GRAPHIC] [TIFF OMITTED] 80843.043
    
    [GRAPHIC] [TIFF OMITTED] 80843.044
    
    [GRAPHIC] [TIFF OMITTED] 80843.045
    
    [GRAPHIC] [TIFF OMITTED] 80843.046
    
    [GRAPHIC] [TIFF OMITTED] 80843.047
    
    [GRAPHIC] [TIFF OMITTED] 80843.048
    
    [GRAPHIC] [TIFF OMITTED] 80843.049
    
    [GRAPHIC] [TIFF OMITTED] 80843.050
    
    [GRAPHIC] [TIFF OMITTED] 80843.051
    
    [GRAPHIC] [TIFF OMITTED] 80843.052
    
    [GRAPHIC] [TIFF OMITTED] 80843.053
    
    [GRAPHIC] [TIFF OMITTED] 80843.054
    
    [GRAPHIC] [TIFF OMITTED] 80843.055
    
    [GRAPHIC] [TIFF OMITTED] 80843.056
    
    [GRAPHIC] [TIFF OMITTED] 80843.057
    
    [GRAPHIC] [TIFF OMITTED] 80843.058
    
    [GRAPHIC] [TIFF OMITTED] 80843.059
    
    [GRAPHIC] [TIFF OMITTED] 80843.060
    
    Mr. Ose. This committee has itself examined what meth is 
doing in California. In February 1999 we were in Woodland 
having a field hearing. We had a lot of testimony from law 
enforcement there, a lot from people who had been using meth, 
and I am pleased to say that the interest in that issue has 
continued since.
    Congress does need to act on this issue, and it needs to 
act soon. I note with particular interest the efforts at CJS on 
funding some of these issues, and I look forward to working 
with you, Mr. Chairman, and hearing the testimony from the 
witnesses today as we move forward. Thank you.
    [The prepared statement of Hon. Doug Ose follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.061
    
    [GRAPHIC] [TIFF OMITTED] 80843.062
    
    [GRAPHIC] [TIFF OMITTED] 80843.063
    
    [GRAPHIC] [TIFF OMITTED] 80843.064
    
    Mr. Souder. I thank you for your continued interest and 
leadership. We learned a lot in the California hearing that you 
instituted and traveled together to South America to many of 
the source countries, and you have been very involved in the 
hearings. I appreciate your leadership and continued interest, 
particularly in calling attention to the meth question, as you 
saw it explode in your district.
    We have been joined today by Congressman Bruce Baird of 
Washington State. I have asked him if he would sit up with us 
today and he is going to participate in the hearing. He is the 
co-chairman of the Meth Caucus in the House and also one who 
has pushed this committee and Congress toward leadership in the 
meth area. Congressman Baird?
    Mr. Baird. I would like to thank the chairman and the 
ranking member for holding this hearing today. As founder of 
the Methamphetamine Caucus, it is particularly important that 
we raise the profile and awareness of this terrible scourge 
within the Congress and the law enforcement community.
    My own background on this very briefly: I was a clinical 
psychologist before coming to Congress and had firsthand 
experience treating meth addicts. I will never forget a meth 
addict who I asked what it was like to be hooked on meth and he 
said, ``Doctor, if my kids were over here and they desperately 
needed me and there was methamphetamine over here and I needed 
methamphetamine''--and at that point he began to cry--he said, 
``I'd go for the methamphetamine.''
    We don't want a drug that powerful in our society 
destroying lives and destroying our families, and hearings like 
this and actions at the Federal level can help our local law 
enforcement officials. I look forward particularly to the 
testimony of Sheriff John McCroskey, who I will introduce in a 
few minutes, who is on the front lines of this battle every 
single day in our rural county of Lewis County.
    But, again, to keep my remarks short, I want to thank the 
Chair and the ranking member, and I look forward to the 
comments from the witnesses.
    Mr. Souder. I apologize, I referred to Brian as Bruce. I 
gave him a promotion. I think Bruce Baird used to be a forward 
on the Ft. Wayne Comets hockey team.
    Mr. Baird. That's my brother actually. My brother will be 
pleased to hear that. [Laughter.]
    Not the hockey player, though.
    Mr. Souder. Before proceeding, I would like to take care of 
a couple of procedural matters. First, I ask unanimous consent 
that all Members have 5 legislative days to submit written 
statements and questions for the hearing record, and that any 
answers to written questions provided by the witnesses also be 
included in the record. Without objection, it is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents, and other materials referred to by Members, 
including those mentioned by Congressman Ose in his opening 
statement and the witnesses, may be included in the hearing 
record, and that all Members be permitted to revise and extend 
their remarks. Without objection, it is so ordered.
    Third, I ask unanimous consent that the gentleman from 
California, Mr. Calvert, and the gentleman from Washington, Mr. 
Baird, who are not members of this subcommittee and committee, 
and any other Members of the House who may wish to participate 
in the hearing be permitted to do so after all members of the 
subcommittee have completed their questioning in each round. 
Without objection, it is so ordered.
    Now on the first panel, Mr. Keefe has come forward. Would 
you stand while I administer the oath?
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness has 
answered in the affirmative.
    You are recognized for your opening statement. As you know, 
we typically ask our witnesses to summarize their testimony in 
about 5 minutes. We will include a fuller statement in the 
record and any other insertions that you would like to do.

    STATEMENT OF JOSEPH D. KEEFE, CHIEF OF OPERATIONS, DRUG 
                   ENFORCEMENT ADMINISTRATION

    Mr. Keefe. Mr. Chairman, members of the subcommittee, I am 
pleased to have the opportunity to appear before you today to 
discuss the serious methamphetamine problem facing our Nation 
today. I would especially like to take the opportunity to thank 
you for your continued support of Federal, State, and local 
drug law enforcement.
    I would like to also apologize that I have a cold and it is 
very difficult for me to speak clearly, but I will continue.
    Over the past several years, established drug trafficking 
organizations based in Mexico and California have seized 
control of the illicit methamphetamine trade. The principal 
reasons for their rise to dominance is the ability of these 
organizations to exploit the existing, well-established 
transportation and distribution networks on both sides of the 
border, as well as their ability to illegally secure large 
amounts of precursor chemicals.
    These drug trafficking organizations have revolutionized 
the production of methamphetamine by operating large-scale 
laboratories in Mexico and California that are capable of 
producing unprecedented quantities of methamphetamine. Almost 
all of the superlabs operated in the United States are located 
in California. These organizations operate only a small 
percentage of the total methamphetamine laboratories seized 
nationally. However, these labs produce an estimated 80 percent 
of the methamphetamine manufactured in the United States.
    These criminal organizations have saturated the western 
United States with methamphetamine, established their 
distribution cells in other regions of the United States, and 
have now moved their methamphetamine to markets in the 
Midwestern and Eastern United States. Current DEA statistics 
indicate that in fiscal year 2000 DEA alone seized 1,848 
clandestine laboratories and that the total number of 
laboratories seized by Federal, State, and local law 
enforcement officers nationwide was over 6,500.
    Methamphetamine is a very simple drug to produce. A user 
can go to retail stores and easily purchase the vast majority 
of the ingredients necessary to manufacture the drug. Precursor 
chemicals such as pseudoephedrine can be extracted from common, 
over-the-counter cold medications. Unlike Fentanyl, LSD, and 
other types of dangerous drugs, it does not take a college-
educated chemist to produce methamphetamine.
    The highly toxic and flammable chemicals involved make 
these rudimentary laboratories ticking time bombs that require 
specialized training to dismantle and clean up. Even with this 
training, law enforcement officers and/or firefighters are 
often injured responding to methamphetamine lab explosions and 
fires.
    The threats posed by clandestine labs are not limited to 
fire, explosion, poison gas, and boobytraps. The chemical 
contamination of the hazardous wastes contained in these labs 
also poses a serious danger to our Nation's environment. Each 
pound of methamphetamine generated in a clandestine lab can 
result in as much as 5 pounds of toxic waste, which clandestine 
lab operators routinely dump into our Nation's streams, rivers, 
and sewage systems to cover up the evidence of their illegal 
operations. The average cleanup cost per clandestine lab in 
fiscal year 2001 is estimated to be $3,400. The cleanup of 
superlabs can cost over $100,000.
    The violence associated with methamphetamine traffic and 
use has also produced a collateral impact on our communities. 
Mental health agencies warn that methamphetamine abuse can be 
linked directly to a myriad of social and economic problems to 
include child abuse. Domestic violence, poverty, homelessness, 
spousal and child abuse, as well as homicides abound among 
methamphetamine users. Children and infants are susceptible to 
permanent health damage resulting from inhalation of chemical 
fumes. In calendar year 2000, 1,872 were present or residing at 
clandestine laboratories at the time of enforcement 
intervention.
    In response to the methamphetamine threat, DEA established 
the National Methamphetamine Strategy. The primary focus of 
Strategy calls for a strong and highly aggressive enforcement 
effort that is aimed at chemical companies, chemical brokers, 
and large domestic/Mexican trafficking organizations involved 
in the production, transportation, and distribution of 
methamphetamine and its precursors.
    Operation Mountain Express was especially successful in 
targeting traffickers of methamphetamine precursor 
pseudoephedrine. A number of multijurisdicational 
investigations targeting these pseudoephedrine traffickers, 
many of whom were Middle Eastern region origin, resulted in 
numerous arrests, seizure of large quantities of 
pseudoephedrine, and $11 million in U.S. currency.
    An additional response to the methamphetamine problem has 
been to initiate an aggressive training schedule to increase 
the number of clandestine laboratory safety schools. Since 
1997, DEA has conducted numerous clandestine laboratory schools 
and certified over 4,400 special agents and State and local law 
enforcement personnel across the country.
    Criminal drug trafficking organizations involved in the 
methamphetamine trade are one of the greatest threats to 
communities and citizens across this Nation. Their power, 
influence, and growth are presenting new challenges to law 
enforcement agencies that are addressing this threat. The DEA 
is deeply committed in our efforts to identify, target, arrest, 
and incapacitate the leadership of these criminal drug 
trafficking organizations. In addition, DEA will continue to 
work to improve its efforts to ensure a safe future for both 
our law enforcement personnel as well as our citizens.
    Mr. Chairman, thank you for the opportunity to appear 
before the subcommittee today. At this time I would be happy to 
respond to any questions you may have on this important issue.
    [The prepared statement of Mr. Keefe follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.065
    
    [GRAPHIC] [TIFF OMITTED] 80843.066
    
    [GRAPHIC] [TIFF OMITTED] 80843.067
    
    [GRAPHIC] [TIFF OMITTED] 80843.068
    
    [GRAPHIC] [TIFF OMITTED] 80843.069
    
    [GRAPHIC] [TIFF OMITTED] 80843.070
    
    [GRAPHIC] [TIFF OMITTED] 80843.071
    
    [GRAPHIC] [TIFF OMITTED] 80843.072
    
    [GRAPHIC] [TIFF OMITTED] 80843.073
    
    [GRAPHIC] [TIFF OMITTED] 80843.074
    
    [GRAPHIC] [TIFF OMITTED] 80843.075
    
    Mr. Souder. Thank you. As you may have heard, we have a 
vote on the Journal and then we're going to have a motion to 
adjourn. We're doing campaign finance reform, and it is a 
controversial subject so it could get a little hairy today at a 
couple of times, depending on who got their amendments allowed 
and who didn't.
    At this time, Mr. Gilman, do you have a statement you would 
like to read?
    Mr. Gilman. Just, Mr. Chairman, I am pleased that you are 
conducting this hearing. It is an extremely critical issue, as 
we address all of the substance abuse problems throughout the 
world, and methamphetamine has become a nightmare in many of 
the nations across the globe. I think it is extremely important 
that Congress review what we can do to have a more effective 
approach to this worldwide problem. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. I am going to go ahead with some of 
my questions. I have the advantage of being able to watch the 
clock on the floor here, too. Then Congressman Ose was going to 
try to come back over to continue it, but I don't know, when he 
gets over there and finds out that there is a second vote, 
although there may be a delay, he may come back, reconvene, so 
that he can get some of his questions in. We will at that point 
suspend again, and I am sure the other Members will have some 
questions, too, and I may have some additional.
    First, what I would like, DEA has said that 85 percent of 
the methamphetamine trade is controlled by well-organized drug-
trafficking organizations out of Mexico and Columbia, but 
particularly Mexico, and organizations based in California. So 
are the Mexican and Californian organizations in this 85 
percent, are they controlling the production or just the 
distribution?
    Mr. Keefe. Both, sir.
    Mr. Souder. Both?
    Mr. Keefe. I would say 80 percent of the methamphetamine 
produced in the United States is produced by Mexican 
trafficking organizations who also, then, are involved in the 
distribution through various levels to the street levels, sir.
    Mr. Souder. Now you referred in your testimony--and we are 
going to hear from other witnesses today--about the explosion 
of these small labs and that you refer to that individuals 
can't make their cocaine and their heroin, but they can make 
their meth. You're saying that total is less than 20 percent of 
the country, those who produce their own meth?
    Mr. Keefe. That is our estimate, sir, yes. Both smaller 
labs, personal use, I would say less quality, sir, and those 
are the 20 percent.
    Mr. Souder. And in those smaller labs, are they just 
distributing in a narrow area around them to their friends and 
for personal use?
    Mr. Keefe. Yes. Yes, sir.
    Mr. Souder. Whereas, how does the meth move--in other 
words, if you are coming from Mexico and California 
organizations and moving toward the Midwest, you have a mention 
of Minneapolis. How is that being--does it get into schools? 
How does a trafficking organization set up in meth different 
than it might in cocaine and heroin?
    Mr. Keefe. It may not move that much differently, sir, but 
what we see with the methamphetamine specifically out of 
California is a very strong command control by the Mexican 
trafficking organizations in California with networking now, as 
we mentioned, to cells in the Midwest and through the East 
Coast. We see a tremendous amount of movement across the United 
States through the command control, through the highways, of 
moving the methamphetamine to their cells in the Midwest or 
Atlanta, GA or up into Portland, ME, where they then distribute 
it down to the street level, sir, to the local clientele.
    Mr. Souder. One of the things that we have seen in Indiana 
and other parts of the country is, as immigrants come in, 
particularly illegal immigrants who are basically necessary to 
sustain our work force because our employment rates are so low 
in the Midwest, small amounts of different drugs, including not 
only marijuana, cocaine, and heroin, but increasingly 
precursors or methamphetamine may be being brought that help 
finance the early stages or just give additional cash. Is that 
a pattern you've seen?
    Mr. Keefe. Absolutely, sir. I would say, as we have seen 
through the nineties the economy grow, we've seen a number of 
hard-working Mexicans coming into the United States, moving 
throughout the country, working as construction workers, at 
restaurants, wherever the case may be, and setting up an 
infrastructure which makes it easier for the traffickers to 
move into the community because there are already hard-working 
people there. They assimilate themselves in small areas like 
Indiana, where law enforcement may not be aware of them, may 
not be understanding of how they move it. It's very difficult 
communication-wise, culturally, to understand how these 
traffickers can just set up and they appear overnight. They're 
very well-organized, sir.
    Mr. Souder. When immigrants may bring small quantities in 
and may then not be involved long term, or involved long term, 
or may be what could be called ``mules,'' are they part often 
of a trafficking organization that has dispersed their load or 
does it tend to be more random than that?
    Mr. Keefe. Well, that would be up to the individual. 
Obviously, a mule may just try to make some money to get across 
the United States to get started. He or she may say, ``This is 
the way I want to choose. I'd rather that than work hard.'' And 
they'll continue to try to work for the organization. If they 
work hard and are successful, that may give them the 
opportunity to move up into the organization to more trusted 
positions and stuff like that. Or it could be people just did 
it one time and decided this is not what I wanted to do. Maybe 
a friend got arrested, and they said, ``I don't want to go to 
jail in the United States.''
    Mr. Souder. Do you see the particular problem that we were 
talking about as--do you have any way to quantify what 
percentage of the total trade that might be, and would you put 
that in the 80 percent you were talking about or in the 20?
    Mr. Keefe. It's tough to percentage, sir. What I would like 
to say with the 80 percent was--I'm confusing myself or you--is 
we estimate that 80 percent of the methamphetamine manufactured 
in the United States is controlled by the Mexican trafficking 
organizations. I could not honestly tell you how much 
methamphetamine is also coming into this country controlled by 
the Mexican organizations. What I was referring to in the 80 
percent is what is actually manufactured here.
    Mr. Souder. Certainly, at San Ysidro, where you can see all 
the pharmacies right by the border on both sides, it is 
probably not just aspirin?
    Mr. Keefe. Mexican trafficking organizations for years and 
years have smuggled everything they can into this country, 
drugs obviously very predominant in that.
    Mr. Souder. Mr. Gilman, we have 5 minutes left.
    Mr. Gilman. Yes, a couple of quickies.
    Mr. Souder. OK.
    Mr. Gilman. Do you have enough personnel? I note that some 
new personnel are going to be added for the meth attack. Do you 
have enough personnel and funding in that office?
    Mr. Keefe. Mr. Gilman, we always say we could use more 
personnel and we're always working through our budget process 
to request that.
    Mr. Gilman. And you are making requests for additional 
personnel?
    Mr. Keefe. Yes, sir.
    Mr. Gilman. The 2000 act provided funding for the 
University of Iowa to continue research in rendering anhydrous 
ammonia, one of the chemicals that is used in producing meth, 
useless for meth production. Can you give us an update on that?
    Mr. Keefe. I'm not positive, sir, where that is. Obviously, 
the goal of that is because so much is stolen from farms for 
very small labs primarily that it's needed, so that we can help 
the farmers and the law enforcement people in those communities 
that are inundated with those stuffs because it's so easy to 
use to make methamphetamine. But I can get the answer, sir.
    Mr. Gilman. If you do have any information, could you 
provide it to this committee?
    Mr. Keefe. Yes, sir.
    Mr. Gilman. One more question: There's a news report out of 
Oklahoma that meth test backlogs have been forcing judges to 
dismiss a case saying that there is a tremendous backlog at the 
State drug testing lab. Is that a problem nationwide?
    Mr. Keefe. I'd have to get you that answer, sir. I do not 
know the answer. I can get you that.
    Mr. Gilman. Can someone provide us with that information?
    Mr. Keefe. Yes, sir.
    Mr. Gilman. And if there is such a backlog, what can we do 
to try to help with that? Thank you.
    Mr. Keefe. Yes, sir.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. The subcommittee now stands in 
recess.
    [Recess.]
    Mr. Ose [assuming Chair]. We will now resume the hearing.
    Yes, Mr. Keefe?
    Mr. Keefe. Tampa, FL has been a stronghold for a long time 
for methamphetamine labs and distribution, both the labs, 
formal labs, and the distribution coming across. We see it in 
Atlanta, GA. We see it in North Carolina. I think we could 
honestly say, sir, we see it in every State.
    Mr. Ose. So the labs basically have, if you will, moved 
from what might have been West Coast-centric focus and they 
have started to branch out into other areas of the country?
    Mr. Keefe. Sporadically, sir. Still the majority, the 80 
percent, we still see in California.
    Mr. Ose. Is there something unique about California other 
than its geographic proximity to Mexico?
    Mr. Keefe. Again, I think you have the command control is 
very strong out there for these organizations. Geographically 
is correct, but that doesn't mean that they won't move out to 
other areas. As law enforcement steps up pressure more and 
more, we often see the traffickers move to the paths of least 
resistance.
    I think the key for us for the laboratories, in looking at 
these organizations, is we need to stay after the command 
control groups to help us get to the laboratories and to the 
distribution, sir.
    Mr. Ose. All right. Generically, when you manufacture meth, 
it's got a good stink to it, you need wide-open areas--a ``good 
stink,'' that's a technical term.
    Mr. Keefe. It is.
    Mr. Ose. You need wide-open areas. You have to dispose of 
the used chemicals. So you're largely in a rural area. I mean 
you occasionally see it manufactured in somebody's garage in an 
urban area----
    Mr. Keefe. Yes, sir.
    Mr. Ose [continuing]. Which just boggles my mind how 
somebody doesn't notice.
    Mr. Keefe. Right. They must have a cold like me, sir.
    Mr. Ose. Allergies. I'm allergic to gridlock. [Laughter.]
    From the professional side, what do you see the trend being 
in these labs? Do you suspect that it is going to stay focused 
in California from the manufacturing standpoint or do you see 
it moving into other parts of the country?
    Mr. Keefe. I would be concerned as anything that it would 
move, sir. It's always potential to move it to those areas you 
mention, the parts of the country, rural areas where they can 
set up the larger labs, because of the smell, because of less 
law enforcement presence. Those issues could force it, yes, 
sir, and we're always looking for that, sir.
    Mr. Ose. We are talking about the manufactured side. I want 
to go for a minute to the end-user side. Do you have any 
information about what the demographics are of people who are 
susceptible to use of methamphetamine or the demographics of 
who is using methamphetamines? Is it in affluent areas? Is it 
urban areas? Is it rural areas? Is it the slaughterhouse work 
force? What are the demographics of this?
    Mr. Keefe. It's often--and I don't know totally all the 
demographics--it's often been referred to as the poor man's 
stimulant, but I don't think we can just say that anymore. I 
think there's so much available out there that people that want 
to have the opportunity to smoke it, or whatever, to try it, 
it's there available for all across the board, all the 
demographics.
    Mr. Ose. Now the stuff that I have read has indicated to me 
that this is largely embedded at present in, frankly, the White 
population. It has not traveled or evolved into Hispanic or 
Black populations to the degree that it exists in White, even 
though that is changing. Is that accelerating?
    Mr. Keefe. I don't have figures on that, sir, but I would 
only say the potential is definitely there for that to happen, 
yes, sir.
    Mr. Ose. OK. So it really knows no bounds? It knows no 
bounds?
    Mr. Keefe. Absolutely not, no.
    Mr. Ose. I mean we find it in urban New York; we find it in 
rural Nebraska; we find it in rich areas, poor areas?
    Mr. Keefe. That's correct, sir.
    Mr. Ose. What about age groups?
    Mr. Keefe. Younger individuals, but I would think the 
people that have been using it for longer, you'll see them into 
the thirties, if they last, physically last.
    Mr. Ose. It does beg a question. If someone is walking down 
the street, what are the characteristics of someone who is 
using methamphetamine?
    Mr. Keefe. That's totally high at the time?
    Mr. Ose. A repetitive user, either high at the time or----
    Mr. Keefe. Kind of high-strung, probably very thin, looks 
very worn, very antsy.
    Mr. Ose. How about their teeth? Are their teeth black? Gums 
are black?
    Mr. Keefe. Probably. Well, their health would come from 
lack of food, lack of sleep, taking care of themselves. Yes, a 
habitual user would show all those traits, sir.
    Mr. Ose. Congressman Baird talked about patients of his who 
the strength of the drug basically overwhelmed their parental 
instincts. Is that consistent with what professionals in your 
area of the field are experiencing?
    Mr. Keefe. I would say, from my experience, it's true.
    Mr. Ose. What kind of ramifications exist for, say, child 
protective service agencies and the like?
    Mr. Keefe. It's going to be very difficult for them, very 
difficult.
    Mr. Ose. The recent increase, 1996, 1998, and 2000, in 
criminal penalties for methamphetamine production, possession, 
and sale, have those been helpful with respect to 
responsibilities you possess regarding production and sale of 
methamphetamines?
    Mr. Keefe. Certainly increase is always helpful, sir, no 
question. To what degree, obviously, because of what we still 
see, it hasn't deterred a number of these organizations from 
taking that risk because of the financial gain that they have.
    Mr. Ose. Are there any changes in any of those statutes 
that you would recommend?
    Mr. Keefe. I'd probably have to look into that and respond 
to you, sir.
    Mr. Ose. If you could get back to us on that----
    Mr. Keefe. Yes, sir.
    Mr. Ose [continuing]. That would be helpful.
    One of the issues that exists--and my district's largely 
rural; Congressman Baird's is largely rural; Congressman 
Cummings' is a very urban setting; Mr. Souder has a mix. Many 
of the counties or the local government entities in my area 
spend upwards of 60 or 70 percent of their law enforcement or 
justice budgets on drug trafficking, drug treatment, drug 
cases, drug prosecutions, and the like. Do you have any 
information as to the degree to which methamphetamine as a 
percent is reflected in those wholes?
    Mr. Keefe. No, I don't, sir.
    Mr. Ose. You don't? All right.
    Congressman Latham and I have sponsored legislation in the 
106th Congress regarding the precursor chemicals to 
methamphetamine. How do we figure out how to control those so 
that they don't basically get moved into illicit production of 
drugs? These regulations or these constraints, do you have any 
feedback about how effective they have been?
    Mr. Keefe. Not that I could answer to you right now, sir. I 
could get you that answer.
    Mr. Ose. Do you have any suggestions as to how we might 
improve control of these precursor chemicals?
    Mr. Keefe. I think through outreach programs with the 
chemical companies here in the United States, keep discussing 
with them, explaining to them to look for people, companies and 
what-not, that aren't normally purchasers, or large quantities; 
ask some questions. Wonder where your product--ask where it's 
going downstream and not be afraid to let law enforcement know 
when they see suspicious things. Don't just turn your eye or 
head away just because of the money that's involved. Help us 
out.
    Mr. Ose. Is the DEA doing anything to establish a 
clearinghouse or an ability to track the precursor chemicals 
from manufacturer to end-user?
    Mr. Keefe. No, sir.
    Mr. Ose. You do not have that ability?
    Mr. Keefe. No, sir.
    Mr. Ose. OK. Has the industry been cooperative, in your 
opinion?
    Mr. Keefe. I think it's improving, sir. I think we still 
need to keep working toward it.
    Mr. Ose. Is there anything Congress can do to facilitate 
that relationship?
    Mr. Keefe. Again, I would look into that, if I can get back 
to you on that sir.
    Mr. Ose. All right.
    You talked about the staffing levels earlier with Mr. 
Gilman. I think he asked a question to that. The 2000 
Methamphetamine Anti-Proliferation Act authorized $15 million 
in additional funding for the HIDTA program specifically to 
deal with methamphetamine and amphetamines. Can you give us 
some sense as to how that money is being used to address the 
problem?
    Mr. Keefe. No, I can't, sir.
    Mr. Ose. Perhaps we could followup with a written question 
on that.
    In the 2000 act there were also some research and 
educational programs that were authorized as they relate to 
combating methamphetamine use. Can you give us any update on 
the status of those programs?
    Mr. Keefe. No, I cannot, sir.
    Mr. Ose. All right, we will put that question in writing 
also.
    Mr. Keefe. Yes, sir.
    Mr. Ose. I don't have any other questions.
    Mr. Keefe, we are going to go to the next panel. I want to 
thank you for appearing before our committee. We will be 
directing some written questions to you. I would appreciate 
response from DEA accordingly to help us do our job here. We 
are grateful for the work you do.
    I just want to tell you, I didn't beg to be on 
Appropriations; I didn't beg to be on Ways and Means; I begged 
to be on this committee for a specific reason, and I don't 
intend to let go. So I appreciate your help.
    Mr. Keefe. Thank you, sir.
    Mr. Ose. If there is anything I can help you with, you let 
me know.
    Mr. Keefe. Thank you very much, sir.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.076
    
    [GRAPHIC] [TIFF OMITTED] 80843.077
    
    [GRAPHIC] [TIFF OMITTED] 80843.078
    
    [GRAPHIC] [TIFF OMITTED] 80843.079
    
    [GRAPHIC] [TIFF OMITTED] 80843.080
    
    [GRAPHIC] [TIFF OMITTED] 80843.081
    
    [GRAPHIC] [TIFF OMITTED] 80843.082
    
    [GRAPHIC] [TIFF OMITTED] 80843.083
    
    [GRAPHIC] [TIFF OMITTED] 80843.084
    
    [GRAPHIC] [TIFF OMITTED] 80843.085
    
    [GRAPHIC] [TIFF OMITTED] 80843.086
    
    [GRAPHIC] [TIFF OMITTED] 80843.087
    
    [GRAPHIC] [TIFF OMITTED] 80843.088
    
    [GRAPHIC] [TIFF OMITTED] 80843.089
    
    [GRAPHIC] [TIFF OMITTED] 80843.090
    
    [GRAPHIC] [TIFF OMITTED] 80843.091
    
    [GRAPHIC] [TIFF OMITTED] 80843.092
    
    [GRAPHIC] [TIFF OMITTED] 80843.093
    
    Mr. Ose. All right. We'll have the next panel, please. We 
need to have Mr. Ron Brooks, Mr. Doug Dukes, Chief Henry 
Serrano, and Sheriff John McCroskey.
    I am sorry, we have Deputy Sheriff Doug Harp here, too.
    All right, noting the absence of those two individuals, we 
are going to go ahead and swear in the three of you, and then 
when the others get here, we'll repeat the swearing in for 
them, so we can proceed with the testimony. So if the three of 
you would rise?
    [Witnesses sworn.]
    Mr. Ose. Let the record show that the witnesses answered in 
the affirmative.
    We are going to go alphabetically today. We are going to go 
for 5 minutes. If somebody else comes in, we will let them have 
the chair and proceed. Otherwise, we will recess again, so I 
can go vote.
    Our first witness today is Mr. Ron Brooks. So, Mr. Brooks, 
for your opening statement you have 5 minutes.

STATEMENTS OF RON BROOKS, CHAIRMAN, NATIONAL NARCOTIC OFFICERS 
   ASSOCIATIONS COALITION; DOUGLAS K. DUKES, SHERIFF, NOBLE 
  COUNTY, IN; DOUG A. HARP, DEPUTY SHERIFF, NOBLE COUNTY, IN; 
HENRY M. SERRANO, CHIEF OF POLICE, CITY OF CITRUS HEIGHTS, CA; 
         AND JOHN MCCROSKEY, SHERIFF, LEWIS COUNTY, WA

    Mr. Brooks. Mr. Ose, Mr. Chairman, distinguished members of 
the subcommittee, I appreciate the opportunity to appear before 
you to discuss the explosion of meth production in what I 
believe is the most dangerous drug epidemic to threaten our 
Nation. I'm appearing as the chairman of the National Narcotic 
Officers Associations Coalition, which represents 50,000 
narcotic officers from 36 State associations. I'm an active 
narcotic officer with more than 26 years of service in 
California. I currently serve as the Special Agent-in-Charge 
for the California Department of Justice Bureau of Narcotic 
Enforcement's San Jose Regional Office. During my career, I 
have seen firsthand the damage and destruction caused by 
illicit drug use, and while heroin and cocaine have 
traditionally been considered our most dangerous illegal drugs, 
they pale in comparison to the destructive potential of 
methamphetamine. Also, unlike those drugs, meth is domestically 
produced in clandestine labs and is truly America's home-grown 
drug epidemic.
    Meth labs have a profound impact on the quality of life in 
the communities in which they operate. In addition to the 
devastating effects on users, the most disturbing meth-related 
statistic is that California police officers found 795 children 
inside toxic meth labs in 1999. Another danger is meth's impact 
on the environment. Five to seven pounds of highly toxic 
chemical wastes are dumped, are produced for every pound of 
finished methamphetamine, and that waste is dumped throughout 
the State in our farmlands, rivers, streams, and cities.
    It's important to realize that when a law enforcement 
officer sees a clandestine meth lab, they are interdicting the 
drug at its original source. Because of this, we have a real 
opportunity to dramatically reduce its availability, but we 
will not succeed if sufficient resources are not allocated to 
attack the large-scale meth-producing organizations operating 
in California and flooding our Nation with meth.
    Mexican national crime cartels that now control the meth 
trade have command-and-control structures in Mexico, but 
maintain manufacturing and distribution hubs in California. By 
operating in the United States, these cartels are able to 
produce and distribute meth without having to risk smuggling 
drugs across our heavily guarded borders.
    While fewer than 300 meth labs were seized in the United 
States in 1992, that number rose to 921 by 1995, with more than 
half of those seized found in California. By the year 2000, 
8,923 lab incidents were reported by law enforcement to DEA's 
El Paso Intelligence Center, with 2,239 of those incidents 
occurring in California.
    But lab seizures alone don't tell the whole story. Of 
greater significance are the relatively small number of 
superlabs operated in California by Mexican cartels which 
generate the bulk of the meth consumed in the United States. 
Last year California reported the seizure of 138 superlabs, 
which are defined by DEA as yielding 10 pounds or more per 
reaction. Through June of this year, 79 superlabs were reported 
seized in California, and the number of very large production 
labs, 100 to 300 pounds per reaction, has increased 
dramatically.
    These factory labs are why California continues to produce 
85 percent of the Nation's meth. One superlab can produce as 
much meth as 400 or more of the user labs described earlier. 
The California Department of Justice developed a California 
Methamphetamine Strategy [CALMS], in 1996 to counter the 
growing meth problem. CALMS was funded from fiscal year 1998 
through fiscal year 2000 at $18.2 million for the 
methamphetamine hotspot section of the community-oriented 
police and services cops' budget. The 84 additional agents 
hired as a result of CALMS have resulted in a 90 percent 
increase in California meth seizures from 1997 to 1999, along 
with similar increases in lab seizures. We're very grateful to 
Congressman Ose for leading the entire California delegation's 
efforts to continue funding the CALMS program in fiscal year 
2002.
    But, to be very honest, Mr. Chairman, the meth hotspots 
program is not adequate. One of the biggest problems State and 
local law enforcement face in confronting the meth problem is 
the cost of investigating and cleaning up lab sites. States' 
budgets can absorb only so much of the extra expense. In this 
case, Federal assistance is not only needed, but in the case of 
the CALMS program has demonstrated dramatically effectiveness 
in increasing lab seizures. I would urge the Congress to 
consider expanded methods of providing financial assistance to 
State and local law enforcement for meth enforcement, whether 
through increased funding for hotspots or a separate 
authorization that would meet the needs of all States.
    As a national representative of narcotic officers, I would 
hope that every meth-plagued State receives adequate Federal 
meth enforcement assistance, but I think that it's clear that 
California's meth problem disproportionately affects the entire 
Nation. Meth is the one drug that we can truly choke off if 
sufficient resources are dedicated to the eradication of 
superlabs.
    Chairman Souder, I want to thank you, as well as Mr. Ose 
and the members of this subcommittee, for your leadership and 
all that you do to address and pre-empt the effects of drug 
abuse in our country. As a veteran narcotic officer, I consider 
that methamphetamine is worse than any other drug that I've 
seen, and as a father of two teenagers, I hope that the 
Congress will do all it can to assist law enforcement in 
confronting this problem.
    I have provided the committee with an additional handout 
which, if it would be appropriate, I would like to have entered 
in the record. I would be happy to take any questions.
    [The prepared statement of Mr. Brooks follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.094
    
    [GRAPHIC] [TIFF OMITTED] 80843.095
    
    [GRAPHIC] [TIFF OMITTED] 80843.096
    
    [GRAPHIC] [TIFF OMITTED] 80843.097
    
    [GRAPHIC] [TIFF OMITTED] 80843.098
    
    [GRAPHIC] [TIFF OMITTED] 80843.099
    
    [GRAPHIC] [TIFF OMITTED] 80843.100
    
    [GRAPHIC] [TIFF OMITTED] 80843.101
    
    [GRAPHIC] [TIFF OMITTED] 80843.102
    
    [GRAPHIC] [TIFF OMITTED] 80843.103
    
    [GRAPHIC] [TIFF OMITTED] 80843.104
    
    [GRAPHIC] [TIFF OMITTED] 80843.105
    
    [GRAPHIC] [TIFF OMITTED] 80843.106
    
    [GRAPHIC] [TIFF OMITTED] 80843.107
    
    [GRAPHIC] [TIFF OMITTED] 80843.108
    
    Mr. Souder [resuming Chair]. Thank you. I am going to turn 
to my colleague, Congressman Baird, to introduce the next 
witness.
    Mr. Baird. I thank the Chair. It really is a privilege for 
me to introduce Sheriff John McCroskey. Sheriff McCroskey 
represents Lewis County, which is a rural Washington State 
county, lots of timber country and a county that's been hard-
hit actually economically by some of the timber cutbacks. But, 
in spite of that lack of financial resources, they have faced 
really a plague and an epidemic level increase in meth labs.
    In the nine counties in my own congressional district, 
there has been a 474 percent increase in meth lab seizures 
between 1997 and 2000. There were 46 labs seized in 1997, but 
218 in the year 2000, and just the first 4 months of this year 
alone there were 120 labs seized. At this rate, there will be a 
further 66 percent increase in this year.
    Sheriff McCroskey, as I mentioned, has really been one of 
the leaders in Washington State on this issue. He and his staff 
have done just remarkable work cracking down on the labs, 
trying to stem the tide of this. They are in a county that has 
one of the highest per capita admissions for treatment in our 
State, and it's a real privilege to have Sheriff John McCroskey 
with us to talk about the challenges facing rural officers.
    Sheriff McCroskey, please proceed.
    Sheriff McCroskey. Thank you, Congressman Baird, Chairman 
Souder, Ranking Member Cummings, and my own Congressman. I 
appreciate the opportunity to be here today. I thank you all 
for the opportunity. It's a privilege, and having said that, I 
want to also warn you that I sometimes am candid. I know your 
time is valuable and I will be direct.
    Lewis County, for your information, is located one corner 
at the base of Mt. St. Helens, one corner at the base of Mt. 
Ranier. It's divided by Interstate 5, which runs all the way to 
California, and for whatever reason, they have decided to 
market their meth up in our way. That's why Washington is now 
No. 2 in the country and Lewis County No. 1. As a matter of 
fact, Lewis County seizes more labs in our little county, a 
rural county of 70,000 people, than some States.
    So what needs to be done? You're going to hear a lot--and 
I've looked at my colleague Sheriff Dukes from Indiana's notes; 
I'll try not to replicate things that have already been said. 
Let me tell you, first, that our most successful strategy has 
been the uniformed patrol officer. They're most likely to find 
it. The most labs we seized in 1 day was three or four, and it 
was done on a routine traffic stop. It happens all the time. My 
street crimes unit, which right now has been absorbing the 
patrol when they are in uniform in marked cars, working 
neighborhood problems--we've already talked about the odor of 
meth--and working those kinds of cases, something called 
``knock and talk.'' They're very effective. They've made a 
number of--they make more lab seizures and find more labs than 
our drug task force, which is partially federally funded. The 
reason that occurs, sir, is because of the rules that are 
placed upon our drug task forces. They don't have the 
flexibility, at least in their minds, to do some of the minor 
offenses, the small users, the little things that lead to these 
labs. Consequently, that is a problem for us.
    We find kids in labs as well. If a parent put a firearm up 
to the head of a juvenile with one bullet and played Russian 
roulette, everybody would look at that with horror and they 
would have a complete fit, and there would be punishments that 
would fit this. We find children, babies crawling in labs all 
the time. It's not treated the same way. We find meth oil, 
which is similar to apple juice, sitting next to an apple juice 
bottle available to a child, and that is looked at differently. 
Yet, can you just imagine what would happen?
    Our schools, talk to teachers; it's inundated. I talked to 
a treatment provider for juveniles before I came--she's part of 
my committee from the Meth Summit--in August. Most of her 
business is methamphetamine-related.
    What can you do? Control ephedrine and pseudoephedrine, 
period. They're not rocket scientists. They can't make it 
unless they have that stuff. Precursor laws in the old days 
with the old labs changed the entire process. It had an effect. 
This would, too.
    There needs to be severe penalties. In Washington State we 
have ``three strikes, you're out.'' We have not yet been able 
to convince the Governor that manufacture of meth should be a 
strike because, as I said, it affects every aspect and every 
facet of our communities, our schools, our public and social 
services, our law enforcement, our fire. It's affecting our 
communities, and it's burying us.
    My 44 sworn, or thereabouts, when I am fully staffed, I 
could devote them all to fighting meth, doing meth, and they 
would do nothing else. That's how bad it is getting in rural 
Washington, 70,000 people, mostly Federal property.
    Expand and fund the drug task forces. We are currently and 
constantly under attack. It seems like we're pitted against 
treatment, prevention, and enforcement. We seem to be fighting 
for the same dollars. It's not fair. I will tell you that we 
need to find a way to better blend those things together and 
not fight about the money, but make sure we have what we need.
    This may come as a shock to you, but drug treatment for 
meth is a dismal failure. It is a dismal failure. So dumping 
tons of money in there may not be the way to go. Should we do 
it? You bet, but prevention/enforcement seem to be a better 
tool.
    I know when I arrest a meth manufacturer, someone dumping 
chemicals, poisoning our children, and they're in jail, I know 
they're not manufacturing meth. If I knew they were there for a 
long time--it took us about 20 years to get this last fellow. 
He's gone for 30 years, but it took a long time and a lot of 
arrests for manufacturing meth to get him there.
    Crime is a direct result. There is violent crime, abuse, 
domestic violence, all of that stuff, and those people are out 
driving cars, folks, on the highways with your families and 
mine. They're out there, and they're much more difficult to 
deal with.
    Somebody asked about, what do they look like? If you spot 
one, ever see one once, you'll know after that. They look 
pretty wild.
    Where we can really help us is with lab response teams, 
support our State patrol, our State lab. We can't afford to 
have a lab team. It's too expensive. But we have them in place. 
Our drug task forces, some of them have them in place. We're 
trying to get some more of our people trained by the DEA. Their 
training is very helpful. So we have a minimal response, but 
it's not enough.
    Speaking of the DEA, please, when you send help to rural 
counties, if you send 10 DEA agents to Lewis County, it's like 
a scab on the front of your nose; everyone in the county knows 
they are there. They're not able to use our informants. They're 
not able to blend. We need to find a way to better blend that, 
and that's policy. It's not the officers; it's the 
policymakers. We've got to blend them better, and that can be 
done.
    Standing at the counter of my jail 1 day--what does meth do 
to teeth--a man standing right there talking to me, his tooth 
fell out on the counter. It rots them. The chemicals rot them 
from inside out.
    When they go into the jail, they are taken off any--they've 
been deemed by somebody to be disabled and qualifying for 
benefits until they come into a county jail, and then the 
locals have to pay those medical, dental, and mental health. 
Speaking of mental health, we've had a 1,300 percent increase 
in our jail for mental health referrals since 1988, I think, 
and it's a direct result of substance abuse, in the last 4 or 5 
years, methamphetamine.
    I know a lot of talk has been about asset forfeitures which 
has occurred up here on the Hill. Please remember why it was 
put in place in the first place, and meth is not an asset 
forfeiture target-rich environment. The DEA may have a lot of 
big Mexican and well-organized; ours are primarily mom-and-pop 
stores, mom-and-pop little outfits. They're disorganized. If 
anything, they do communicate by teaching each other how to 
manufacture meth, and that's about it. In fact, the fellow who 
went away for 30 years was our leading instructor in the 
manufacture of meth for others, and we couldn't get rid of this 
scourge.
    Asset forfeiture, there are problems with it. There are 
abuses of it, but, please, when you hear about these horror 
stories, use a surgeon's knife as opposed to a meat cleaver 
approach. If you think about the fact that most of the time the 
problems that you hear are horror stories--and they're real; 
they are real and they are serious, but maybe we can deal with 
ones that are wrong as opposed to every one of us and putting 
us all in the same bucket.
    When I left, my under-sheriff was trying to respond to a 
Federal organization--and this is a continuing problem--
required by them over the Internet on line and, as normally 
happens, it's not working. We've got to find a way--I'm a 
policymaker; you all are policymakers; the leadership of DEA is 
policymakers, the FBI. We have to find ways to better mate up 
so that we get the best bang for the buck.
    I want to thank you all for the time to be here. I 
appreciate the opportunity to address you. As my colleague 
said, I would be happy to answer questions as well.
    [The prepared statement of Sheriff McCroskey follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.109
    
    [GRAPHIC] [TIFF OMITTED] 80843.110
    
    [GRAPHIC] [TIFF OMITTED] 80843.111
    
    [GRAPHIC] [TIFF OMITTED] 80843.112
    
    [GRAPHIC] [TIFF OMITTED] 80843.113
    
    [GRAPHIC] [TIFF OMITTED] 80843.114
    
    [GRAPHIC] [TIFF OMITTED] 80843.115
    
    [GRAPHIC] [TIFF OMITTED] 80843.116
    
    [GRAPHIC] [TIFF OMITTED] 80843.117
    
    [GRAPHIC] [TIFF OMITTED] 80843.118
    
    Mr. Souder. Thank you. You certainly scared me from driving 
I-5. [Laughter.]
    We're going to wait to introduce Chief Serrano until--oh, 
Congressman Ose is back. OK, I will let you do that. I didn't 
see you sneak in there.
    Mr. Ose. I tell you, Chief, I don't know about these guys.
    Mr. Souder. That's why you're in such good athletic shape, 
from all these runs back and forth here. [Laughter.]
    Mr. Ose. Mr. Chairman, it is a pleasure today to introduce 
Chief Henry Serrano. Chief Serrano comes to us today 
representing the law enforcement department of the city of 
Citrus Heights, which I was involved in founding, and we 
successfully accomplished that after 14 years in 1996, November 
5, 1996, if I recall correctly.
    Chief Serrano runs a department of about 60 officers as a 
part of a larger sheriff's organization for the county. He is 
under contract to the city. Henry is the second chief of police 
to serve in the city of Citrus Heights. He's basically on loan 
to us from the sheriff. He has done an outstanding job and has 
had significant experience in the innovative ways in which 
local government in an urban setting can use its resources to 
combat not only methamphetamine, but drug use, drug abuse in 
particular. I am pleased that he is able to join us today and 
has taken time out accordingly. Mr. Chairman, thank you for 
allowing him to testify.
    Chief Serrano. Mr. Chairman and members of the 
subcommittee, I appreciate the opportunity to be here with you 
this morning to provide you with testimony regarding how 
methamphetamine is impacting our community. I'm also deeply 
appreciative to our Congressman, Doug Ose, for all that he does 
and for making my appearance here this morning possible.
    Across America drug abuse is the common denominator in much 
of the overall crime problem. Drug abuse drains precious public 
resources and causes irreparable damage to members of our 
communities. As with many communities, my city of Citrus 
Heights, located in Sacramento County, CA, has its share of 
drug abuse problems. Methamphetamine is the primary drug of 
abuse in the city of Citrus Heights and that region.
    I am here today to share with you, with this committee, my 
concerns about the rapidly spreading use of methamphetamine. 
Because of the location of Citrus Heights and our proactive 
approach to deal with this problem, I may be uniquely qualified 
to comment on the methamphetamine epidemic.
    Studies have shown that Sacramento County had the highest 
incidence of methamphetamine use amongst male arrestees in the 
United States and was third in female arrestees. Nearly 70 
percent of the people arrested in Sacramento County test 
positive for at least one illegal drug at the time of arrest. 
Furthermore, a study of students at our city's high schools 
indicates that over half of the high school students report 
having used illicit drugs.
    Studies show that methamphetamine is spreading from the 
West Coast across the United States. Based on current trends, 
methamphetamine will become a major problem for U.S. cities 
coast to coast. Public and private health care services are 
adversely impacted by drug abuse. Sacramento County has a 
higher rate of methamphetamine-related hospital emergency room 
admissions than any other county in the State of California.
    Children are often victims of drug abusive parents or care 
providers. Child Protective Services in California report that, 
when it intervenes to protect a child from a drug abusive 
family, methamphetamine is invariably a root cause. One in 
every 10 babies born in Sacramento County test positive for 
drugs or alcohol.
    Violent and unpredictable behaviors of persons high on 
drugs pose a safety risk for both the public and law 
enforcement across America. In 1999, a subject who was under 
the influence of methamphetamine attacked two Citrus Heights 
police officers. During the incident he was shot. In 2000, a 
violent, highly publicized hostage situation occurred in Citrus 
Heights. A subject who was under the influence of 
methamphetamine held an 84-year-old man hostage and threatened 
to stab him in the throat. The subject was shot and killed by 
an officer.
    With the formation of the Congressional Caucus to fight and 
control methamphetamine, a bipartisan group of 68 Members of 
Congress, including some of yourselves, has nationally 
acknowledged the gravity of this epidemic.
    What can be done to change this scenario? The Citrus 
Heights Police Department has developed an innovative and 
proactive drug abuse reduction model combining prevention, 
education, enforcement, and training. Through a reality-based 
education of students and members of the community, 
collaboration with stakeholders, and early intervention through 
highly specialized law enforcement training and enforcement, 
the Citrus Heights Police Department has taken a first critical 
step toward a healthy and more productive community.
    The police department would like to implement and expand a 
drug reduction/prevention program that will serve as a model 
for other law enforcement agencies across the United States. 
Our goals are to employ drug recognition experts [DREs], to 
intervene and act as resources to other officers enforcing 
drug-related laws and DUI laws.
    In the United States only about 1 percent of officers have 
this DRE training. In my agency approximately 20 to 25 percent 
of the officers are DRE-trained, and my goal is to have 50 
percent trained and certified as experts.
    We work collaboratively with the University of California, 
Davis, Department of Psychiatry, working to create a reality-
based, innovative and progressive drug education program for 
students and other key stakeholders in the community. We 
provide drug abuse education materials and support service 
references to drug-addicted arrestees and their family members 
and friends. We also identify unsafe environments for children 
where drugs are prevalent and work with Child Protective 
Services to place children in safe living situations. We seek 
to provide support services to elderly persons or 
developmentally disabled people who are neglected by drug 
abusive relatives or caregivers. Our agency works to obtain and 
analyze data regarding youth exposure to drugs and 
effectiveness of drug education, prevention, and media 
campaigns to develop more effective age-appropriate education 
materials. We are in the process of developing and implementing 
a survey for students and citizens regarding the availability 
of drugs and patterns of abuse to assist in the development of 
effective strategies for drug prevention. We will analyze and 
incorporate data from surveys to develop a profile of the 
methamphetamine users: habits, patterns of use and purchase, 
and other psychological traits to aid in the enforcement 
efforts and education of other law enforcement officers, and, 
finally, to design and implement a program evaluation survey to 
evaluate outcomes of the school education component, including 
the effectiveness of the course over a 3-year period in 
preventions of patterns of drug abuse.
    I truly believe that drug abuse is, first, a community 
problem, and therefore, first, must be addressed at the 
community level. A broad-based program, such as the one I have 
just described, is necessary for every community plagued by 
drugs. It is only when every community can do its part to 
reduce demand for illegal drugs that significant headway can be 
made into what is really becoming a national problem.
    My department is doing what it can, but we need to do more. 
We will always strive to be in a leadership role to reduce drug 
abuse and improve the quality of life in Citrus Heights and, 
hopefully, the Nation.
    Mr. Chairman, in conclusion, thank you very much for the 
opportunity to be with you this morning. I would like to have 
the additional documents I have provided entered into the 
record. I hope my testimony has been effective in highlighting 
the problems, and I look forward to working with you toward a 
solution. I would be pleased to take whatever questions the 
subcommittee may have.
    [The prepared statement of Chief Serrano follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.119
    
    [GRAPHIC] [TIFF OMITTED] 80843.120
    
    [GRAPHIC] [TIFF OMITTED] 80843.121
    
    [GRAPHIC] [TIFF OMITTED] 80843.122
    
    [GRAPHIC] [TIFF OMITTED] 80843.123
    
    [GRAPHIC] [TIFF OMITTED] 80843.124
    
    [GRAPHIC] [TIFF OMITTED] 80843.125
    
    [GRAPHIC] [TIFF OMITTED] 80843.126
    
    [GRAPHIC] [TIFF OMITTED] 80843.127
    
    [GRAPHIC] [TIFF OMITTED] 80843.128
    
    [GRAPHIC] [TIFF OMITTED] 80843.129
    
    [GRAPHIC] [TIFF OMITTED] 80843.130
    
    [GRAPHIC] [TIFF OMITTED] 80843.131
    
    [GRAPHIC] [TIFF OMITTED] 80843.132
    
    [GRAPHIC] [TIFF OMITTED] 80843.133
    
    [GRAPHIC] [TIFF OMITTED] 80843.134
    
    [GRAPHIC] [TIFF OMITTED] 80843.135
    
    [GRAPHIC] [TIFF OMITTED] 80843.136
    
    Mr. Souder. Thank you very much. Sheriff Dukes and Deputy 
Sheriff Harp, will you stand? We need to swear you in.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have 
answered in the affirmative.
    It's my privilege today to introduce Sheriff Dukes as well 
as Deputy Sheriff Harp to the committee. We have worked 
together for many years on the drug problem. He was one of the 
sheriffs in my district that early on recognized we had a drug 
problem, and along with Judge Cramer, other leaders in the 
county, have put a national award prevention program in place. 
They have one of the first grants and efforts in the community 
coalition, in addition to the youth prevention, the one where 
they're consulting and working with businesses as to how to 
identify drug problems and get people into the prevention 
programs.
    It's been a full-force pressure, and working particularly 
with Sheriff Snyder over in Elkhart County, where you have a 
lot of common problems moving back and forth. Because of the 
nature of the communities on the western side of Noble County 
and the eastern side of Elkhart County, we have seen much more 
aggressive law enforcement and kind of an early warning system 
in northeast Indiana as far as the drug problem. It's a great 
privilege to have you today and we look forward to your 
testimony.
    Sheriff Dukes. Thank you. It is an honor to speak to you. 
It is an honor for me to be here today, and we thank all of you 
for inviting us.
    We're from a rural community, 43,000 people, 10 percent 
Hispanics, legal Hispanics. We have a large number of illegal 
Hispanics living in our community.
    My department is 18 persons. I have one drug officer and 
one field detective. It wasn't until 1996 that we made our 
first methamphetamine arrest. Since then, we've been 
overwhelmed. Our department has collected just in the past year 
approximately 150 ounces of meth. That's a half million dollars 
worth of street value--in little, lone Noble County.
    We have some stories to tell you. We keep a jail of 230 
beds. It used to be 36 beds. We have an average population of 
approximately 200 in jail. I could stay here today and tell you 
story after story after story of the bizarre incidences with 
just methamphetamine. I'll summarize, if I can. I know I'm 
limited on time.
    A woman, 27 years old, mother of three, found face down in 
a coma, clinically dead, now has gained 100 pounds, babbles 
when she talks and has a tube running out of her brain. Bad 
methamphetamine--because you can't tell the difference. This 
was made from Decon, baking soda, and battery acid; looked like 
methamphetamine. These are the kind of things our youth have 
trouble with.
    An ex-athlete, 19-year-old girl, running naked down 
railroad tracks. It was so difficult to--she weighed 95 pounds. 
She was so difficult for us to handle that we shipped her to 
the Department of Corrections for safekeeping. They called us 
and told us to pick her back up. We couldn't control her; they 
couldn't control her. Methamphetamine.
    A subject that was arrested for disorderly conduct broke 
the lock on our holding cell, a little guy, very meek the next 
day, apologetic. It took seven confinement officers to hold him 
down and subdue him, high on meth.
    An inmate, tackled because he was trying to do a swan dive 
from the top bunk, high on meth.
    Twenty juveniles arrested in a burglary ring, the sole 
purpose for the thefts, the burglaries: methamphetamine, to 
purchase methamphetamine.
    A subject, really bizarre, high on methamphetamine, that we 
were following, playing with a chainsaw in his front yard, 
trying to have fun with his buddy as he was gunning the 
chainsaw. Finally arrested that day, came in, took his clothes 
off, which is frequent, masturbated on the floor and actually 
had sexual intercourse with the floor drain--solely high on 
methamphetamine.
    A senior high school dropout in rural--one of our three 
little schools, making $4,000 a week. He dropped out of school. 
He said, ``I could have made more, but I couldn't hardly spend 
the $4,000 they were giving me.'' Flying to Phoenix, AZ and 
getting right back on the plane and coming back, never got 
caught until he got caught in Tulsa coming back by an 
interdiction team. He had a body suit. All he was doing is 
going around and filling the body suit full of methamphetamine 
and coming back. He stated they had 400 clients, as he called 
them, mostly high school kids from our community.
    These are just a few examples of bizarre behavior. I could 
talk all day long. Meth is the drug of choice in Noble County.
    There are some statistics and some things I'd like to tell 
you real quickly. The National Drug Intelligence Center stated 
that the State police laboratories, meth laboratories, have 
doubled every year except for 1999, when they tripled.
    In our local paper, in Tuesday's edition, it said that an 
Indiana State police officer shut down 128 labs in 1999, 315 in 
2000. We're right around 500 right now. It is overwhelming.
    A quick note from the Internet: You want to know where to 
make methamphetamine. That's what the kids do; they hit the 
Internet, 200-and-some recipes on the Internet, but one of them 
I found real interesting, a Partnership for Free Drug America, 
where it states that, ``It has been brought to my attention 
that many people in this country cannot easily get the drugs 
they crave,'' and it goes on to talk about methamphetamine. 
``Methamphetamine is one of the most fun drugs around. It makes 
you smarter and increases physical performance. Meth lets you 
work around the clock, so you can be a more productive 
worker.'' This is the stuff our kids get a hold of.
    I want to thank you. I could tell you stories all day long. 
It is a major problem. And, Mr. Gilman, we have two DEA agents 
in our 11 counties. We could have two working full time in our 
county or twenty working full time in our county. There are not 
enough DEA agents. There are not enough undercover drug agents 
in our area.
    Thank you very much.
    [The prepared statement of Sheriff Dukes follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.137
    
    [GRAPHIC] [TIFF OMITTED] 80843.138
    
    Mr. Souder. Sheriff Harp.
    Sheriff Harp. Thank you for giving me the opportunity to 
share with you our thoughts and concerns about the 
methamphetamine epidemic in our community.
    In 1995, I was privileged to be asked by Sheriff Dukes to 
begin work as the first undercover narcotics officer in the 
history of our small department. Having worked for several 
years as a street cop, I felt I had a pretty good understanding 
of the drug traffic and use in our county. I felt, like most 
people, that the big drug dealers were in Detroit, Chicago, and 
Ft. Wayne, and that most of our local dealers picked up their 
dope from them and sold it then in our county. In addition, I 
knew that we had LSD, marijuana, and cocaine in our community. 
Methamphetamine, I thought, was primarily for the truckers and 
the bikers. What I found out over the course of the next 2\1/2\ 
years was I didn't have a clue about the scope of the drug 
problem in Noble County, IN.
    My first exposure to meth was in 1996 when a deputy stopped 
a Yugo on a traffic violation. The Yugo had an overwhelming 
odor coming from the vehicle. The car had a plastic gas tank in 
the back that had a hose attached to it that was vented out the 
rear of the vehicle. The tank was frosted over and bulging at 
the seams. The deputy knew that something was amiss, but he 
really didn't know how to proceed. So he did what he had been 
trained to do, and he had the vehicle impounded and brought to 
the lot of the sheriff's department.
    Imagine, if you will, how stupid we felt when the lab team 
from Indianapolis got there in full gear and breathing 
apparatus, as we're standing there in our civilian clothes and 
uniforms and watching them approach this car. Fortunately for 
us, it was a learning experience that we lived through, and it 
could have ended very tragically for all the officers involved. 
As we processed the car, I was amazed at what we found. There 
was Coleman fuel, lithium batteries, brake fluid, Red Devil 
lye--all the things they were using to manufacture 
methamphetamine.
    During my tenure working narcotics, approximately 80 
percent of the drug cases that I investigated involved the sale 
and manufacture of methamphetamine. Clan labs started appearing 
throughout northern Indiana, not the major labs that are common 
in the Southwest, but primarily mom-and-pop labs.
    Over the course of the next several months we arrested one 
Noble County resident in Noble County with 5 pounds of meth, 
learning later that we had missed another 14 pounds. Another 
resident was interdicted in Kansas with over 20 pounds of meth 
which he had purchased in California and was bringing back to 
Indiana. On both these things, what I found interesting was, 
when you consider the average price of meth, it's $1,600 a 
pound, and it wasn't going to Ft. Wayne, Detroit, Chicago. It 
was coming directly to Noble County, IN.
    In another instance a female resident was arrested after 
receiving FedEx packages containing methamphetamine from 
California. Subsequently, she was convicted, served her time, 
was released, and we arrested her again not too long ago for 
manufacturing meth in her apartment.
    One of the things, as I was putting this together and 
reviewing the information I had, is the surrounding theme with 
methamphetamine is the violence, and our county is no exception 
to this rule.
    In 1997, we arrested a female for dealing meth and cocaine 
from her home. A search warrant was conducted of her house, and 
we discovered several semi-automatic assault rifles, a sawed-
off shotgun, and a bullet-proof vest.
    In 1997, search warrants were conducted on two separate 
locations in Noble County on a Hispanic dealer who reportedly 
had ties to the Mexican mafia. The suspect was not located; 
however, several guns were, including a 50-caliber Desert 
Eagle. The suspect was later shot and killed in Mexico, 
reportedly over a drug debt that he owed.
    In 1999, while executing a search warrant on a suspected 
meth dealer, the suspect attempted to shoot officers with a 9-
millimeter handgun. Officers returned fire and killed the 
suspect. An autopsy conducted on the suspect revealed that he 
had toxic levels of methamphetamine in his system.
    In the year 2000, a search warrant was conducted in 
neighboring LaGrange County and the suspect set his house on 
fire and then shot at police officers who returned fire, 
killing the suspect.
    Recently, a search warrant was conducted on a clan lab in 
our county and a deceased infant was found in a duffel bag. The 
mother of the child, a 16-year-old juvenile, admitted that she 
was a regular user of meth and was using meth during her 
pregnancy. She stated that the child was stillborn and she had 
carried the child in the duffel bag for several weeks.
    Across the country violence has increased as a direct 
result of meth usage, and I believe that it will continue to 
escalate as meth becomes more and more popular.
    Last night in Noble County, deputies arrested a person with 
28 grams of meth. This would have been a major news story for 
us, 5 or 6 years ago, and today I doubt that it makes the front 
page.
    In my lifetime I don't believe that rural America has ever 
had to deal with anything as destructive and costly as meth. It 
is destroying communities morally, spiritually, and 
financially, and it is my belief that it has not yet peaked. 
Usage will continue to grow and availability of the drug will 
reach epic proportions.
    We need your help in coming to terms with something that is 
turning rural America into a toxic waste ground, destroying 
lives, filling our jails, and using up all of our limited 
resources.
    Thank you.
    [The prepared statement of Sheriff Harp follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.139
    
    [GRAPHIC] [TIFF OMITTED] 80843.140
    
    Mr. Souder. Thank you all for your testimony. It is a very 
good mix and moving mix and challenging mix of testimony for 
us.
    Sheriff Dukes, there was one thing that you had said that 
was extremely troubling to me. You said that the one person 
that you had arrested said he had 400 clients. Do you have any 
idea what percentage were students? Did he give you any clue? 
Half? Because, to put it in context--what?--east Noble has 
maybe 1,200 in the high school; central Noble, 250, and west 
Noble, 600?
    Sheriff Dukes. Right.
    Mr. Souder. Something like that? So that would be an 
extremely high percentage from just one dealer, unless he was 
into the junior highs, too, but you're still in a pretty high 
number of penetration.
    Given the fact that we have been very aggressive in Noble 
County, also, in prevention programs and treatment programs, 
aggressive with this, could you elaborate a little bit more? Do 
you think we're not catching in the other counties as much? You 
alluded to the changes occurring in Noble County, and they are 
dramatic. For those who aren't familiar, you use a 10 percent 
Hispanic population, which is a jump probably close to five 
times since the last census, and in Ligonier on the western 
side of the county, I know when I go to the parade there, less 
than 50 percent can speak English, of maybe 20,000 to 30,000 
people at the parade. It is a dramatic changing community, most 
of whom are in no way involved with any of these problems, but 
it has led to extra challenges. Could you elaborate a little 
bit? Because it would seem to be a county where we have model 
prevention and treatment programs.
    Sheriff Dukes. In that case right there, the person he was 
in business with was from Goshen, and it included a lot of 
Elkhart, Goshen, all the way to Kendallville, all the way to 
East Noble kids. He, this kid, had a big, fancy car, the gold; 
he had it all, and he attracted people. When I say he had 400 
clients, that's exactly what he told us, around 400 clients, 
and most of them high school kids. It always amazed me how, at 
$100 a gram or $125 a gram--you know, I didn't have that kind 
of money and still don't. My wife doesn't let me have that 
much. Where do they get it, you know? But that is exactly what 
was going on there, and he never got caught, flying on those 
airplanes, using his own name. He just used different airports. 
But it's all local.
    Mr. Souder. Several of you made references to trying to 
improve prevention programs as well as treatment programs. 
Could you address--Sheriff McCroskey, I think you had some 
fairly pointed comments about that. What would you suggest we 
do to make them more effective?
    Sheriff McCroskey. I wish I could tell you. I wish I had 
any answer. I can really only speak to my little world. One of 
the problems that I see, I've coached little league baseball 
and soccer for many years and watched these kids grow up now, 
and it hurts me terribly to tell you that some of those kids 
have told me they'll be dead by the time they're 25 and they 
don't see any reason not to use this. At best, I guess, can 
call it a loss of hope.
    Another phenomenon in our county, in our community, largely 
because of changing timber policies, we no longer have the 
mills and the jobs that were paying high dollars. Well-meaning 
people have come and said, ``Well, let's put some training 
dollars in here and make them computer programmers or other 
things,'' but these are folks whose family name is on a road 
someplace, who have hauled logs, cut trees, and have somehow 
been maligned by others who don't live there and think we've 
cut all the trees down or done something horrible. They have 
lost hope. They are losing their houses, and they go to the 
bars. Usually it starts with alcohol, and they drink and they 
end up trying meth.
    The message that gets lost somewhere is that meth--and I've 
been around this a long time, and I didn't see heroin and stuff 
in our county until just recently probably, but I started in 
southern California and I saw a lot of it there. The difference 
between then and now, in my opinion, is that started in the 
mainstream stuff and scared people and they backed away from 
it. Today it's going into the mainstream and, for whatever 
reason, either because of its highly addictive nature, the loss 
of hope, the failing families, the strain of just trying to eke 
out a living in places that are depressed anyway, and it's 
affordable, they're using it. Once they're addicted, it's too 
late.
    So how do you connect with kids and say, ``Look, it's not 
marijuana. If you try it, it may be the last thing you do. 
There's a good chance you're going to be addicted. It's not 
something that you may walk away from in a little while''?
    People that live in my jail for up to 3 years--I wish they 
didn't, but they do, and they'll tell you when they leave, the 
day they leave, that they'll go out and find meth just as soon 
as they can. They're not in there for meth. They're in there 
for driving violations or something, but they're going to go 
find meth. They know it hurts them. They know it's bad. They 
don't care, and I don't know how you connect with 10-year-olds 
and keep them from starting.
    Mr. Souder. Thank you.
    Chief Serrano. Excuse me.
    Mr. Souder. Sure.
    Chief Serrano. If I could address on the question of 
education, we've been fortunate. We've had some very, very 
creative officers. Bob Johnson, one of my lead narcotics 
officers, is very creative in his thought processes. One of the 
things we did was we went into our freshman class at our high 
schools and we spent a 4-hour period with these freshman. We 
went over the pathology of it. We went over what it does to 
your career opportunities. One of the most effective things, I 
think, was we took several pictures, before and after pictures, 
where you start off with a really vibrant, sharp-looking young 
man or young woman, and by the time they're 30 they look like 
they're 50.
    The things that these other gentlemen have described are 
absolutely true. Teeth are gone. Complexions are shot, deep 
boils, scarred, just a mess.
    With that, we then did a post-survey of the students and 
asked them about four questions. One of them was, ``Has this 
training changed your thought processes?'' Almost every one of 
them said to some degree or another that it had changed their 
thought processes. In fact, we had a couple that were really, 
really sad where the kids were saying, ``You know, my parents 
use meth and I know I need to now become involved with you guys 
because I see what it's going to do to my family.''
    So that is something that we have found effective. The 
psychologists that we work with tell us that the freshman year 
is as late as you can get in on that type of intervention. If 
you wait until they're seniors, you've waited too long. But it 
does seem to be at least one effective tool that we can use to 
help educate our youth.
    Mr. Souder. I want to add a brief comment before I go to 
Congressman Gilman, and it actually happened at East Noble High 
School. I was meeting with seniors, most of the senior class, 
and raised the question because I believe in drug testing, and 
immediately was jumped by a number of the class leaders as this 
being a violation of civil liberties to propose such a thing. 
One of the students then held up his hand and said, if he 
hadn't been caught in a drug test, he said he was spiraling 
downhill and that was the only thing that saved him, was a drug 
test as part of an athletic team at East Noble. Then another 
class leader jumped in and said, ``Yes, but it's a violation of 
civil rights,'' blah, blah, blah. And a couple of other 
students jumped in who said that they favored drug testing and 
had used drugs.
    The principal and the superintendent, who were in the room, 
then instituted a drug-testing program because they said every 
kid who had spoken up in favor of drug testing had either had a 
problem or had been suspecting of a problem, and every student 
who had spoken against drug testing had never been suspected of 
a problem, which was it turned on its reverse. It was almost as 
though they were begging for help.
    Now the Indiana court has kicked out the drug testing. Ball 
State in Indiana has done a survey showing that the schools, of 
which a number are in my district, that have put in drug 
testing, now since the drug testing has been pulled, we've seen 
a dramatic rise again in the drug usage in Indiana schools in a 
multiple way. Part of my frustration is that, in addition to 
the education, having a check, it's both find opportunities so 
they don't lose hope, but they also have some accountability, 
and we need to look at creative ways to do that. The court 
needs to be helpful rather than obstructionist.
    Sheriff McCroskey. Mr. Souder, may I comment on that for 
just a second?
    Mr. Souder. Yes.
    Sheriff McCroskey. One of the comments earlier was about 
the odor. Many of the chemicals are common chemicals, acetones 
and things like that. So that the odors are not necessarily 
going to get you very far, depending on the environment that 
you find them in. Of course, if you found them in the tank of a 
car, that may very well be.
    The other anomaly, speaking of your students, that I find 
really disturbing is that it used to be that you could classify 
kids. Go to a group and the group would be--in our area they 
were called the stoners, the drinkers, and the athletes 
essentially. That would be what they would call themselves. And 
they didn't blend very well and you wouldn't find the athletes 
involved in these other things. What we're finding today is 
that our athletes, our best, our brightest are getting involved 
in methamphetamine. Again, for the life of me, when you talk to 
them and wonder why--you know, I want a little more information 
from this man about the Citrus Heights thing. Some of that we 
already do, but some of the experts tell me that scare tactics 
don't work. On the other hand, part of my heart says that it 
might. I don't know, but it is frightening.
    Mr. Souder. Congressman Gilman?
    Mr. Gilman. Thank you, Mr. Chairman, and I want to thank 
our panelists for being here today. You've described some 
pretty poignant pictures of what we have out there in the 
battlefield. Sheriff from Indiana, Doug Dukes, you mentioned 
you have only two drug agents out there now, DEA agents?
    Sheriff Dukes. Correct, they're in Ft. Wayne. They're in 
the city of Ft. Wayne and they're overwhelmed.
    Mr. Gilman. Sounds like we need a lot more help out there.
    Sheriff Dukes. You sure do.
    Mr. Gilman. And we'll make a recommendation to that effect.
    Sheriff Dukes. Thank you.
    Mr. Gilman. Have you seen--and I address this to all of the 
panelists--have you seen a change in the demographics of the 
problem in your area over the years? Has it spread? Is it more 
concentrated around the cities? Can you tell us a little bit 
about what you are finding? And I address that to all of the 
panelists.
    Sheriff Harp. Again, the thing that I noticed when I 
started working narcotics was I had the perception that the 
larger dealers were in the cities and that they weren't direct 
pipelines into the small counties. One of the things that just 
amazed me, was the fact that we've got major, major dealers set 
up in rural county America. Our county is only 43,000. So that 
part of it was really frightening to me.
    It got to be in a sense kind of comical. When we leave the 
office--I was based out of Ft. Wayne, attached to a task force, 
but if we turned right, we went to the innercity and we bought 
crack cocaine. If we turned left, we went to Noble County and 
we bought crank, we bought meth.
    Mr. Gilman. Where is most of the meth coming from in your 
area?
    Sheriff Harp. A lot of it is mom-and-pop operations now. 
Five years ago, it probably wasn't to that extent, but today 
there's a lot of mom-and-pop operations that are cooking up an 
ounce to a pound, somewhere in there, because they're heavy 
users as well as dealers. Then we've still got a pipeline, I 
think, that comes from the Southwest and comes direct to the 
county.
    Mr. Gilman. So what portion of it is mom-and-pop 
operations?
    Sheriff Harp. That would be kind of hard for me to say. In 
I think the majority of the cases that we've seen the last 2 
years, it has probably been small operations that had been 
cooking their own. That doesn't mean that the big operations 
aren't there, because they still are.
    Mr. Gilman. Other panelists want to comment on that? Yes, 
Chief?
    Chief Serrano. There is a change in the demographics that I 
find kind of frightening, because I hadn't heard some of the 
numbers here from folks in the central and eastern portion of 
the country. Methamphetamine costs about a quarter of what it 
does for the rest of these folks in California. It is extremely 
cheap. That is one of the things that makes it the drug of 
choice out there. You can get enough to stay high for a day for 
about $20. It's not $120 a gram; it's about $20 a gram in 
California.
    Mr. Gilman. Any other comment by the panelists? Yes?
    Sheriff McCroskey. Sir, I would just add that most of ours 
also is mom-and-pop. However, we just did, and we've done two, 
international cases in our county, and the last one was a huge 
case. DEA came in and spent several months involved with our 
task force on it, but that's relatively rare. I'm afraid that 
may be a pattern that is coming.
    Mr. Gilman. Mr. Brooks.
    Mr. Brooks. Yes, I would say in California, which is the 
State that is completely flooded by methamphetamine, it crosses 
all boundaries. There is no demographical lines that would 
delineate who might use meth or who might not. We're finding it 
among professionals. We're finding it among the blue collar 
community. We're finding it among all race and genders. But the 
really scary thing that's been mentioned is in California it's 
cheap. It's so cheap that it's become a very popular drug, 
along with ecstacy, at rave parties and in nightclubs. More 
frightening now, as a parent, we're seeing it into the junior 
high school and even upper grade elementary school levels, 
available for purchase at $5 and $10 for usable quantities.
    Mr. Gilman. Mr. Brooks, is any of it coming in from 
overseas, other countries?
    Mr. Brooks. We have seen a recent phenomenon of 
methamphetamine tablets coming from Southeast Asia into the 
Oakland and LA airmail facilities, but that has not been that 
common. As was testified to, California is probably producing 
83 percent of the total amount of the methamphetamine sweeping 
the Nation. Not to take away from the mom-and-pop user labs 
that have been a problem in all States, the big superlabs or 
factory labs in California is what drives the meth trade.
    Mr. Gilman. One last question, Mr. Chairman. I know my time 
is up. Have any of you received any significant help from the 
Federal agencies?
    Sheriff McCroskey. Sir, we have a drug task force that's 
partially funded, but constantly the funding for it is under 
attack. I guess there's other things that are needed. So we 
struggle with that.
    The other area, though, that we're desperately in need of 
is in cleanup help and lab response help, and I would suggest 
that you use established organizations that may be in 
existence, if they're not. We have some rural counties that do 
not have any of those things, but our Washington State Patrol 
Lab Response Team runs itself completely ragged trying to keep 
up, and we lose cases. There's labs that we don't even include 
in the numbers because we lose them.
    Mr. Gilman. Any other comments?
    Mr. Brooks. If I could----
    Mr. Gilman. Go ahead, Mr. Brooks.
    Mr. Brooks. What we receive in the way of Federal help, we 
have an excellent working relationship with DEA, but 
California, the Department of Justice has run since 1996 our 
California Meth Strategy Program. It's been funded out of the 
Congress since 1998. That gave us 84 additional agents and 59 
additional technical specialists to add to what was already a 
very robust program that we ran. It makes up a small portion of 
the $160 million that California law enforcement spends each 
year on meth enforcement, but it gave us those extra personnel 
so that we could concentrate on the big, large-production, 
organized-crime families that are operating these meth labs, so 
that we weren't just reactive like firefighters, but that we 
could be proactive in long-term strategies to work on rogue 
chemical companies and cross-state and interstate distribution 
organizations producing in California but shipping hundreds and 
thousands of pounds of methamphetamine across the Nation.
    Mr. Gilman. Thank you. Any other comments? Yes, sir?
    Chief Serrano. Yes. We've been very fortunate where we're 
at in that Congressman Ose has been a tremendous support in 
helping us with Federal assistance. We currently have a program 
that I talked about today. We want to expand it to its full 
fruition so that we can prove it out, so that we can get it 
beyond the ad hoc enforcement, education, and community nexus 
that we're currently doing. The program that I have referenced 
cleared appropriations yesterday. So we're very hopeful that 
we'll be able to see that become a reality and will be able to 
further prove out the things that we have going here, but we're 
very, very hopeful for that.
    Mr. Gilman. Well, we commend Congressman Ose, who does a 
great job at fighting this battle, wherever it may be.
    And the other two gentlemen, sheriffs?
    Sheriff Harp. One of the problems that we have, with the 
task force I was assigned to, since I've left that, the numbers 
have been cut in half, not by our department because we only 
had one representative there, but the Allen County Sheriff's 
Department, who was the primary sponsor of the task force, 
through some reassignments and some shortages elsewhere, had to 
pull half the task force and put them back into uniformed 
positions. So that is really going to hurt us in our area 
because we've lost the use of so many personnel that we're 
earmarked just for narcotics.
    Mr. Gilman. Sheriff Dukes.
    Sheriff Dukes. Yes, sir. Our two DEA agents work well with 
us. It's just that we don't see them too often because they are 
so overwhelmed. However, when they came--we never had them 
until about 3 years ago or 2 years ago--since they came, our 
big cases now go to Federal court. It has made a difference.
    Mr. Gilman. Well, it's good to hear that.
    Mr. Chairman, with your consent, I'd like to submit my full 
opening statement for the record.
    Mr. Souder. Thank you.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Ose.
    Mr. Ose. Mr. Chairman, what is the time----
    Mr. Souder. We have 10 minutes and 21 seconds left in the 
vote on a motion to go to conference on the supplemental.
    Mr. Ose. Are we going to have a second round?
    Mr. Souder. Yes, because we're not going to be able to get 
Congressman Baird in before, and I have some more questions, 
too.
    Mr. Ose. OK, thank you, Mr. Chairman. A couple of 
questions, if I might.
    Chief Serrano, I want to explore these drug recognition 
experts, and I want to come back to the DEA agent numbers 
because I share an issue with Sheriff Dukes and Deputy Sheriff 
Harp here. On the drug recognition experts, if you could 
elaborate a little bit more on what that program is? Why is it 
important to the entire program, and then could you share with 
us some of the experiences that law enforcement personnel who 
come out of that program have had when they go back to their 
home departments?
    Chief Serrano. Yes, thank you, Congressman. The drug 
recognition expert program is a 2-week training period, and 
they go through everything from symptomology to what the drug 
is, how it works. They receive this training at certain 
training sites. They are very, very limited. Once they've had 
the 2-weeks of course study, then they have to go out into the 
field and prove that they've absorbed what they've learned.
    Citrus Heights is a DRE test site, which means that we 
bring officers in from all the northern California region to be 
able to go out and make arrests and show that they truly 
understand what they've learned.
    What DRE does for the officer is officers who are well-
versed in this can be driving down the street, look in the car 
next to them and tell by symptomology some good indications: 
sweatiness, clammy, the tweaker movement, as you might refer to 
it. They can identify these things.
    To be certified, they have to get 12--they have to be able 
to do the work on 12 individuals who are arrested for 
methamphetamine. These sweeps that we do in our city that 
usually involve between about 12 and 15 officers, the most 
people we have arrested in about a 10-hour shift is 25, and 
that's simply going out and looking for them.
    What it does for an agency is it gives them the ability to 
identify it. A classic example is there's a little community 
just east of us called Rocklin, about 8 miles out of our 
community in Placer County. One officer got DRE trained. The 
following month he arrested 20 people in his community, and his 
comment, because he's come back and helped on some of the 
sweeps, was, ``These are the same people I've been stopping in 
the 5-years I've been with the agency. I just didn't know what 
to look for.'' And that's the real key to DRE: It gives you 
something to look for. The officers are now trained. They know 
what to look for. They know how to identify it and they can 
take affirmative action based on that.
    Mr. Ose. Mr. Chairman, the reason I asked that question is 
I did a ride-along with a member of the department in Citrus 
Heights, and it was uncanny to be just driving down the street, 
and the deputy would just be kind of going like this, right 
there, and would pull that car over, and, bam, he'd find 
something related to the drug issue. It was uncanny.
    So for the others who are here who might wish to access 
this program or those who might read this testimony, I would 
commend this program to them.
    Chief Serrano. Congressman Ose, we've trained Mounties and 
we'd be glad to invite anyone else who would like to come.
    Mr. Ose. All right.
    Sheriff McCroskey. Sir, just let me comment on that. It's 
also in Washington. However, the biggest setback to a rural, 
small agency such as myself is the 2-weeks' training and the 
costs associated with that. We do send a person occasionally, 
but----
    Mr. Ose. What is the cost? Two weeks of salary and covering 
the shifts and whatever the cost to house them.
    Mr. Brooks, you talked in your testimony about 670-odd 
children being CPS-eligible or necessarily turned over to CPS. 
Can you just expand for us the connection that you're seeing 
between methamphetamine use and its impact on families, the 
disintegration that takes place in those families and the 
impact on the kids from those families?
    Mr. Brooks. Yes. Methamphetamine is an extremely 
devastating drug in that, as described before, people that are 
addicted to methamphetamine become so consumed that they're 
unable to provide the care and love that they need for their 
children. Additionally, it's a drug that is sexual drug and a 
drug that causes aggression and violence. So in many studies 
throughout California 80 to 85 percent of the child abuse cases 
have been related to persons, caregivers or parents or others, 
that were under the influence of meth.
    One example is the fire in Riverside County, CA, when a 
meth lab exploded in a mobile home and a mother raced to save 
the meth chemicals and save her own life while letting her own 
three children burn to death.
    Another example was in Arizona when a New Mexico man under 
the influence of methamphetamine driving down the street heard 
voices that he related later he thought were from God that 
caused him to cut the head of his small son off while his other 
older son tried to stop him. The violence associated with meth 
and the violence that I can relate to you may sound 
sensationalized, but this is something that I see and deal with 
every single day of my life.
    More importantly, when we talk about these children and 
these meth labs, more than 700 in 1999 eligible for treatment 
by the child protective services and really that number is much 
higher because there are some meth lab teams that have not been 
trained to take care of those kids yet. These are kids who test 
positive for meth, heavy metals and the other toxins that are 
involved in meth labs.
    Let me just relate a real quick story. I just did a meth 
lab where I went out with the men and women that work for me 
down in rural San Benito County, 2 hours south of San Jose. We 
hit a meth lab, a large Mexican national factory lab, almost 
300 pounds of finished product, five armed suspects running 
that lab, and when we hit the lab in what was the largest 
hydrochloric acid cloud that I have ever seen in all the labs 
that I've hit, an extremely toxic environment, we found a woman 
with her three children and she was pregnant, 8 months pregnant 
with her fourth child. We had been on surveillance on that lab 
for 3 days. We had never seen her come or go, which meant that 
her and her children were in that lab, in that environment, an 
environment of carcinogens, respiratory toxins, and contact 
poisons, for the whole weekend that we watched the lab. That's 
but one story of hundreds, maybe thousands, that occur across 
the Nation.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. The subcommittee now stands in 
recess, and we'll come back to this panel when we get back.
    [Recess.]
    Mr. Souder. The subcommittee will come to order.
    Mr. Baird.
    Mr. Baird. Again, thank you, Mr. Chair, for holding this 
hearing and for your leadership on this issue, and thanks to 
the witnesses for their outstanding testimony, and not only for 
your testimony, but for your service. You folks and your 
officers go in every day to places that are terribly, terribly 
dangerous.
    I shared with the chairman on the way to the vote when I 
use to do crisis mental health and our pagers would go off. In 
these days most folks who were doing crank in those days were 
largely biker-type folks. When your pager would go off and 
they'd say, ``There's somebody here in the ER on meth,'' you 
just would shake your head and say, ``Gosh, why did I get call 
duty today?''
    But I want to ask a couple of questions regarding the 
exposure of your officers to the toxic chemicals. Oftentimes 
you don't know there's a meth lab when you're going to bust a 
place. What experiences have you had? One of our city 
councilwoman's son is a police officer whose had some severe 
health effects following a meth lab bust. I'd be interested in 
your comments and your experiences. I'll open this to whomever 
wants to offer it. John, do you want to start? Sheriff 
McCroskey.
    Sheriff McCroskey. Sure. Thank you, Congressman Baird. It's 
funny you should ask that. We have officers exposed less 
frequently now because they're a lot more cognizant of it, but 
it wasn't uncommon to send one to the ER routinely after an 
exposure. One of my deputies, a woman, which they do tell me 
biologically are more vulnerable than men in some ways, stopped 
a car, went to a house because a guy forgot his license, and 
said, ``Hey, I'll take you up there and get the license for 
you.'' And she followed him up there. They walked in the door, 
and as they walked in the door he goes, ``Oh, gosh, I forgot 
about my meth lab cooking here.'' So she was instantly 
contaminated. It's routine--it's very common or most common in 
domestics or in serving of warrants: routine, common police 
practices, things we do all the time. So it's very common, and 
a byproduct of that is increased insurance rates to local 
agencies through the risk pool and others.
    Mr. Brooks. In California we run a statewide clandestine 
lab enforcement program out of our nine field divisions. We're 
required to have cradle-to-grave reporting for all of those 
agents in which we do baseline medical testing annually. So we 
can track the accumulation of heavy metals and other chemicals 
in their system and we report our exposures. Last year in 
California 22 law enforcement officers went to the hospital 
from injuries from exposure that occurred at labs, but many 
hundreds of officers were exposed.
    There's an interesting graphic in this book that I think 
could be put up on the screen that kind of shows how toxic 
these lab sites are. It's just amazing to me that we don't get 
more and more officers hurt because--you may not be able to see 
that too well, but it's in your packet. You can see the 
thousands of gallons of toxic chemicals, and we're talking 
about carcinogens, contact poisons, respiratory toxins.
    At one point in the heating process in making 
methamphetamine using the red phosphorous pseudoephedrine 
method, if you overheat, it creates phosphine gas, a very 
deadly gas that, when breathed just several times, can cause 
pulmonary edema and almost instant death. All of our agents 
have to carry toxiray phosphine gas detectors, and that's when 
we know we're going into the meth lab. So the real hazard, of 
course, is when officers working in uniformed patrol for local 
police departments or sheriffs' offices may stumble into these 
environments without the protective equipment that we normally 
wear, without that training and that medical monitoring.
    Chief Serrano. In my agency what we do is, if we get into a 
lab environment, as soon as it's stabilized, we get out and we 
bring in the task force. We are very fortunate; we're there in 
California where there's a lot of emphasis way far down the 
track. Being at the capital, we have all these resources 
immediately available, and we just hold it down. We're more 
concerned about protecting our officers at that point and 
stabilizing the situation and immediately handling it.
    There have been times where we have gone in and seen it and 
it was so dramatic that we have had to evacuate portions of 
neighborhoods in order to keep them safe.
    Sheriff Dukes. The DEA training is excellent in what to do. 
We do the same, stay back as soon as they find it. Very 
sobering, the class is very sobering, as you see three 
policemen and I believe a county coroner going into a house, 
all eventually died of cancer. A body that was outside that was 
so contaminated that when they turned it over, the officer got 
contaminated. The DEA has an excellent training program. We, as 
a department, have the State police identifying team come in 
and show us what to be careful of every year.
    Mr. Baird. We intend at some level within the 
Methamphetamine Caucus here to try to initiate some studies, 
possibly through CDC or NIH, to assess this. If you gentlemen 
or your offices have data pertaining to exposures and 
illnesses, we would much appreciate that, if you have the 
opportunity. That may be helpful. Address it to my office, 
attention Lizzie Ivry, who is on my staff. Lizzie's over here.
    Sheriff McCroskey. Congressman Baird, along those lines, 
I'd ask that you consider the fire departments at the same 
time, especially volunteer fire districts who they're just 
folks that help out, but the impacts can be significant to 
their districts as well.
    Mr. Baird. At some point, John, we intend to do precisely 
that. Thank you. Again, thank you. My time's up. Thank you, Mr. 
Chair.
    Mr. Souder. We're going to go a second round. I had a 
question. In Indiana and nationally we have had a case that is 
going to impact the identification of marijuana growing and 
being able to identify it from helicopters based on the heat 
sensitivity and other visual imaging. Is that also going to 
affect meth labs?
    Sheriff Harp. Probably not to the extent that it will with 
the marijuana grows. Unfortunately, we just got the thermal 
imaging. We just sent the guy to training in Arizona and he 
just got back with the unit, and then I think a week later is 
when the court kind of nixed us on that.
    The other thing that we've also stumbled into specifically 
in Indiana with our interdiction program, where we do the rouse 
and put signs up, and then we're on a side road and that's 
actually the interdiction point. I know in Indiana they've 
nixed the sobriety check points and they've also created 
problems for us doing those kind of interdictions. So we've 
come to a standstill until we get some kind of further opinion 
from the prosecutor in our county anyway as far as what we can 
do with the interdictions. So those are two things that's 
really hurt us recently within the last just couple 3 months as 
far as what we can do for proactive drug enforcement.
    Chief Serrano. Our experience is that a lot of what we find 
with the labs and the major suppliers is through the arrest or 
the interconnects with the lower-level person purchasing. To 
give you an idea, we had a situation a few weeks ago where an 
officer was very proactive, stopped a gentleman. He didn't have 
his license on him. In order to work off not getting a ticket 
for not having his license, he went and did a drug buy. A lot 
of times you can have someone for a low-order-type situation 
that you work with in order to get more information. You 
develop informants, and it's usually through--at least our 
experience in a community of about 89,000 people, that's the 
most effective, is working informants.
    Sheriff McCroskey. In my rural county our idea of thermal 
imaging is standing next to the wood stove and going, ``Man, 
that's hot.'' [Laughter.]
    So that's not going to hurt us too bad yet, but what does 
hurt us, we recently had a case that could not be charged 
because of a court decision where an officer went to a door to 
serve a civil paper, saw methamphetamined people, they 
screamed, ``Cops, police,'' ran like crazy, and through the 
house. He pursued. They were ultimately all arrested. We not 
only found meth; we found a meth lab. The meth lab 
spontaneously combusted shortly thereafter, while it was being 
watched, waiting for the lab team. That whole case could not be 
tried because in this particular case the prosecutor felt that 
the courts had so restricted our ability to enter that house 
under exigent circumstances that we were not able to pursue 
that. That was my neighbor; the meth lab was.
    Mr. Souder. Mr. Brooks, could you comment on the large-
scale labs in California, how that might differ in these kinds 
of questions as far as (a) how you identify them, and then a 
second question that Chief Serrano may want to address as well, 
and that is: How does the child abuse law in California 
regarding meth labs work at this point? It came up in the 
hearing we had in California. You referred to the increasing 
number of arrests in the area of child abuse related to these 
type of violations, but I've wondered if you could put that in 
specific context as we look at that possibly spreading around 
the country.
    Mr. Brooks. Certainly. To the first portion of your 
question, many of our large meth labs we find through 
cooperating police informers or, even more often now, by trying 
to target who we know are rogue chemical distributors and then 
following the trail of those chemicals, very large amounts of 
chemicals, both ephedrine or freon or red phosphorous or acids. 
Those are very labor-intensive cases. They require around-the-
clock surveillance teams with aircraft support because these 
people are very cagey and very aware of surveillance, but 
sometimes then, after days, weeks, maybe even months of 
following those persons, we're able to then put them down at 
what we know to be a large superlab or factory lab. After 
waiting sufficient time for a search warrant, we're able to 
enter and process that lab, which, by the way, may take 30, 40, 
or 50 hours of crime scene processing, these very large labs.
    The issue of the thermal imaging, we use that as 
collaborative evidence only. It probably doesn't affect us too 
much, but what will out of that same court decision is the 
limit of our ability to use trackers that we place in suspects' 
vehicles, especially in barrels of chemicals that are traded 
through cooperating witnesses, and we use those trackers to 
follow the chemicals to the labs. Now there are more 
restrictions on that, but I'm sure we'll work around that.
    As to the child abuse/child neglect issues, California has 
been very successful in the institution of the drug-endangered 
children's program, where we work very closely with child 
protective services, the courts, and the district attorney's 
office, and other public health care professionals to look at 
the danger the children are in in homes where meth is present, 
where firearms are present and, more importantly, in these 
homes and in environments where children are present when drugs 
are being cooked, when they're exposed to the drugs. We have a 
protocol on how to collect evidence specifics for those child 
abuse/child neglect prosecutions, and we work closely with the 
DA's office, with the county prosecutors to prosecute. And 
that's something that they don't do very well at the Federal 
level yet. Federal prosecutions might be something the Congress 
would look at.
    Chief Serrano. On a more local level, in all candor, the 
major concern we have in those situations is the welfare of the 
child, the endangerment of the child. If we can take that child 
out of that environment and get them into the processes of the 
State, at least if there wasn't a case open on the family 
before, there is now and a child protective worker will be 
checking on the family and monitoring. A lot of times that's 
probably about the best help that we have for that child. 
They're in extremely dire straits in the environment where the 
parents are either cooking or heavy users of methamphetamine. 
Getting that child out of that cycle is probably the most 
beneficial thing that you can do.
    Mr. Souder. And you've invoked that in your county a number 
of times?
    Chief Serrano. Yes. Yes, we will take the child out of the 
home. Obviously, it always depends--if the parent is a moderate 
to minor user and we're arresting the custodial parent, a lot 
of times we'll spend time with the parent to try to find an 
aunt, an uncle, a grandparent that can take the child. In these 
serious cases, as being indicated, that's where you want to 
take the child and you want to put them into a protective 
environment and at least get the processes started with the 
State and the local government, so that will be monitored.
    Mr. Brooks. Mr. Chairman, if I might, the biggest problem 
is the children in these meth labs, they're truly guinea pigs. 
There are no long-term studies both for our police officers, 
firefighters, EMS personnel, or these children, these innocent 
victims, on what the long-term effects are of prolonged 
exposure to heavy metals and carcinogens. We know anecdotally a 
number of horror stories of cancers and tumors and other 
illnesses, kidney and liver failures caused by these meth lab 
chemicals, but we're still in those early stages, only 10 or 20 
years of studies. So these children growing up, exposed in 
these heavy environments, chemical environments like I 
described in Hollister, CA, we really don't know what's going 
to happen to those children when they're adults.
    Sheriff McCroskey. Sir, I'd just like to add that--and keep 
in mind that my perspective is completely rural--we don't have 
enough CPS, child protective services. We do not have enough 
foster homes. If we started doing--we have to really evaluate 
in where they're placed; they're very limited. I mean, we do 
all the things, take them out, start the case, do those kinds 
of things, but the limitations, based upon what's available in 
our community in terms of housing those children, is severely 
limited. So very often they end up right back where they came 
from.
    In your packet of information that I provided was a case 
out of our county where a 16-year-old--I think he's a 16-year-
old, but a young boy--was used as a guinea pig, got to test out 
the meth his folks produced. I'd like to say that that stuff 
doesn't happen, but I'll bet it happens more than we know.
    Mr. Souder. Thank you. Congressman Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Chief Serrano, I want to go back to the drug recognition 
expert program that you've got doing. How much of that program 
are you able to implement with local funding and resources?
    Chief Serrano. We are very fortunate in--just about 
exclusively the DRE program is something we've absorbed 
locally--we're fortunate in that the training happens at the 
California Highway Patrol Academy, which is right near our 
community. So it's a day-commuter on the officers. What we have 
to absorb, then, is the time for them to be in the class and 
the moderate tuition. I think it's only $200 to $300 for the 2-
week training, very inexpensive. But we can't absorb the loss 
of the officers. That's the biggest thing that we absorb, is we 
have to watch that.
    We are the training site, the certificationsite, where they 
actually go to do their training. So when our officers go to 
the school and they come back to do their training, they're 
doing it right there in our own back yard. They're doing it 
within our community.
    At this point we have managed to absorb that. It is 
sometimes difficult. It means, instead of--because we don't 
have a big pot of money that we can pay to backfill and stuff, 
we send maybe--we have 85 sworn and we maybe send two or three 
people to a class instead of five or six, like we might like 
to, but we're able to do it.
    Mr. Ose. Let me diverge for a minute. Of your 85 sworn, how 
many of them are in the police force as a result of the COPS 
program successes we've had?
    Chief Serrano. That's a very good question, Congressman. 
When we started up 4 years ago, 32 of our officer positions 
were COPS positions--allowed us to start the police force, 
allowed us to have it staffed as it should have been. This past 
year, with Congressman Ose's help, we were authorized an 
additional six officers through the COPS program that are now 
providing our traffic safety and our motor unit.
    Mr. Ose. I bring that up, Mr. Chairman, because when we 
established the city, there were two or three driving issues, 
one of which was the adequacy of law enforcement. It's 
interesting to me, on almost a daily basis, to see the 
interconnection between what we do here at the Federal level 
and the success that local government enjoys in addressing 
local concerns, at least as they relate to, say, Citrus 
Heights. And I'm sure they exist in your communities also.
    Chief Serrano. Mr. Ose.
    Mr. Ose. Yes?
    Chief Serrano. I might say that, from my perspective, the 
COPS program has probably been one of the most beneficial 
Federal programs for law enforcement to my experience.
    Mr. Ose. I appreciate the ability to diverge there a little 
bit.
    Chief Serrano, you also talked--excuse me--I talked in my 
more complete statement about the problems we have with meth 
and other drugs on our school campuses. We haven't touched on 
that very extensively here this morning. You did a survey on 
one of the campuses with the kids. It's anonymous, so there 
wasn't any consequence. But the kids talked about being able to 
acquire weed, ecstacy, crank, and coke, and all that. One even, 
more than one went so far as to say, ``Oh, yeah, we've got a 
crank dealer in our neighborhood,'' kind of like your mom-and-
pop AM/PM or something.
    What has been your experience as to the impact of meth in 
the schools that are in the city of Citrus Heights? And for 
that extent, the others might want to chime in.
    Chief Serrano. The main drugs that we see in our high 
schools, thank goodness, are primarily marijuana, but we do 
have a small percentage of the drug users--in the survey we did 
I would say that I know that at least 50 percent of the kids 
said, ``Hey, I have used some kind of drug.'' I would say it's 
a very small portion of the students that use methamphetamine.
    We're lucky in the sense that we do take the resources we 
have put into drug enforcement and not only worked the arrest 
aspects, but we've really worked diligently to try to really 
implement the educational and community involvement aspects. 
We're also fortunate in that we have a school officer assigned 
to each high school, and that becomes a really viable contact 
within that school. What it allows us to do is, as kids get 
more confident in the officer, all of a sudden they're coming 
up and, ``Hey, Officer Henry, I'm kind of bugged 'cause 
Johnny's not acting right, and I know that Johnny's parents 
do'' blah, blah, blah. It really is a good resource to have 
that officer in the school.
    But, yes, as far as methamphetamine in our high schools, at 
the high school level it has not become a major problem that we 
are aware of.
    Sheriff Harp. We're probably in that same line. Marijuana 
is the drug of choice in the high school. We have seen a 
resurgence of LSD somewhat into the younger crowds, high school 
and early twenties, late teens. Primarily our meth problem has 
been with probably the 21 to 40-year-old crowd.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Brooks. I was going to say, we're seeing in the San 
Francisco Bay Area an increasing amount of local law 
enforcement reporting teen meth use. The thing that's really 
dangerous about this, NIDA and NIH studies, and those coming 
out of Columbia University are showing that meth robs the brain 
of serotonin and dopamine permanently. There is permanent brain 
altering, maybe brain damage, if you will.
    The other thing is it puts these kids on the highway with 
an altered state of awareness, depth perception, and speed. We 
just had, in 1998, a fine young fellow, Scott Greeley, who was 
a California Highway Patrol officer, killed when he was on a 
traffic stop on the side of the road, run into by a meth drug 
driver who wasn't even aware of his own surroundings.
    So I think the risk of children being permanently damaged 
and the risk of children being on that road with not very much 
driving experience and then being under the influence of meth 
puts all of us and our families in danger.
    Sheriff McCroskey. I won't repeat what they said, but the 
ancillary problems are also, if you talk to teachers, the kids 
that are coming to school, they're not learning. They're having 
all kinds of behavioral problems. They normally say, ``Oh, 
that's Johnny; their folks do meth; their folks do meth; their 
folks do meth.'' And the rest of the kids are suffering, too.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. Congressman Baird.
    Mr. Baird. One of the things that I have seen as far as lab 
precursor material has been this huge abundance of 
pseudoephedrine. We had a bust in Lewis County recently where 
they found 40,000 bottles of Sudafed. The guys were clever. 
Instead of dealing with the child-proof lids, they had rigged 
jigs up to chop the bottoms of the Sudafed bottles off, so they 
didn't even have to waste the time with child-proof lids and 
cotton, etc. They were very resourceful. But they found bags 
and bags and bags.
    One of the pseudoephedrine bottles I brought to my office 
here, and it said it was distributed by a company called 
Wildcat Wholesalers. Now it sure did not seem to me to be a 
reputable drug distribution organization.
    Do you feel like--it seems to me that there are some 
Federal laws and some State laws regarding distribution and 
tracking precursors, but it seems that if a company, be it a 
mom-and-pop grocery store or whatever, is selling these kinds 
of quantities, we must have some better tracking method than we 
do now. What is your experience with that, and what do you 
think we need to do?
    Sheriff Dukes. If I could, it's exactly the way you're 
talking. In our community the kids steal a lot of it from the 
little convenience stores and occasionally get caught stealing 
it. Of course, they have a cold or allergy; they're never 
making meth, of course. However, there is no tracking. To my 
knowledge, there is no tracking. I don't know if you can 
purchase it over the Internet or not, but I wouldn't be a bit 
surprised.
    However, if I may get back to something you said earlier--
and it's so important. It affects the kids. When you talk about 
education now, we all know that, but the correctional officer 
who the policeman comes in and throws in the guy that's high 
and stinks, he's affected. The ambulance or the EMS people who 
go to the scene, they had their first class in meth just about 
6 months ago in our county. They didn't even know what it was. 
The emergency room doctors, the emergency room nurses that take 
care of these people--this is a chain reaction. I think John 
said the firemen, the volunteer firemen--we're all little and 
they've never seen this stuff, and they go into these homes and 
they go right in them.
    Mr. Baird. Sheriff, if I could interject----
    Sheriff Dukes. Sure.
    Mr. Baird. I think you raise a critical point. One of my 
concerns, if you were to look at funding levels for drug 
interdiction from this body, from the Congress, we spend so 
much more money on cocaine and heroin and the other so-called 
hard drugs. Yet, as you all know, ask any sheriff, ``Would you 
rather bust a coke, a crack house, or a meth house?'' You don't 
have to have HAZMAT teams to bust a crack house. You don't have 
to have fire suppression to bust a crack house. You're not 
exposed to toxic waste in a crack house. The social costs, I 
believe, of methamphetamine far outweigh--not that the other 
drugs are good, by any means, but we're spending billions of 
dollars in Plan Columbia and all these other plans. Yet, right 
here at home we have these tremendously diverse impacts, hugely 
costly, especially for you rural communities that are relying 
on volunteer firefighters, don't have HAZMAT teams, don't have 
bunny suits, all that stuff. It seems to me maybe our 
priorities are crooked here--not crooked, but they're in the 
wrong direction.
    Sheriff McCroskey. I think you're right, Congressman. I 
think they changed. That's all that's happened is there's been 
a change. Sometimes we don't react to change very well.
    One of the byproducts of our attention to meth at home was 
we missed--I was sitting in the emergency room. I'm an amateur 
carver, and I mostly carve my finger. So I was in the emergency 
room getting sewn up, and while the doctor was sewing me up, he 
was telling me that day two people, two prominent local adult 
people had come in requesting help for heroin addiction. I 
said, ``My gosh, is that a problem?'' And he said, ``Oh, 
yeah.''
    Then the next thing I knew we have kids off the football 
team going to treatment, kids off the basketball team going to 
treatment. So while we've been buried down here in looking at 
meth, and because it is so bad and so long term--we've just got 
to be cognizant of the things that are going around in addition 
to that.
    Mr. Baird. John, just before my time's out, have you also 
seen this problem--or others--with this ready availability of 
mass quantities of Sudafed or any other precursors? Do you feel 
we need to do more to track that availability?
    Sheriff McCroskey. Yes. In fact, if there's one thing that 
would really help, I think that particular thing, the 
controlling of that particular substance, would make a huge 
difference. Two stores, two local stores, small, convenience 
stores had been selling, and the DEA came down and just did one 
again a few weeks ago, but they were the primary source. At one 
time our county was--we were being told through informants that 
the folks in Pierce County, which I think is the No. 1 county 
in Washington volumewise for methamphetamine labs, were coming 
to Lewis County to buy their stuff because we live kind of in a 
simple world. We didn't know what a rave was until one came and 
now we have ecstacy. We didn't have that before. Kids were 
suddenly educated. So we've done some work educating our 
businesses, too.
    Mr. Souder. I want to thank this panel for a number of 
things. Sheriff Dukes, if you could add, just for the record, I 
think that you were the sheriff who told me that actually some 
of the meth cookers in Noble County had actually purchased one 
of the pharmacies?
    Sheriff Dukes. Well, what the informant has told us, they 
now own the pharmacies; they now own the fertilizer places for 
the anhydrous. This is very recent information. This is a 
motorcycle gang out of Indianapolis who's implicated our area 
and said, ``You'll never catch us because now we're 
businessmen.'' That's what was told to us.
    Mr. Souder. Which is a frightening trend as far as us 
tracking, if it's a logical growth of a distribution network, 
is to get control of the next thing.
    I also wanted to just comment that our interrelationship 
with the Mexicans and Colombians is inevitable if 80 percent is 
being distributed by Mexican and California-related sources, 
who predominantly distribute Columbian cocaine and heroin, 
which finances the distribution networks. The things are 
inextricably intertwined.
    And a last comment to Mr. Brooks: I want to thank you, not 
only all of you on the front lines, but in your association, 
the narcotics association, for helping connect all the people 
across the country who are working together in battling 
narcotics in an informational way, in an information and 
advocacy way to help battle these things. So I thank each of 
you for coming today.
    Did you want to add something, Sheriff?
    Sheriff McCroskey. Well, something that was not talked 
about today--and I'd add here it's not apparently a widespread 
concern, but it is locally a trend we've seen, and that is--and 
I know it's a topic of Congress: identity theft. Our 
methamphetamine, our small, mom-and-pop operations are 
financing themselves through the theft of mail, the replication 
of ID stuff, the credit cards. It is interwoven, at least in 
our area. I know that some of the folks that we have captured 
doing that have traveled all the way the Mexican and Canadian 
border. So it will affect others as well.
    Mr. Souder. Thank you very much.
    If Susan could come forward for our third panel, she's 
going to talk about the treatment issues. If you'll remain 
standing, I'll administer the oath to you as well.
    [Witness sworn.]
    Mr. Souder. Let the record show the witness has answered in 
the affirmative.
    I thank you for coming and being patient as we've moved 
through this. We're trying to make sure in each hearing as part 
of the record we include treatment as part of our anti-
narcotics effort because we cannot tackle this problem without 
the treatment component. So we look forward to hearing your 
testimony.

   STATEMENT OF SUSAN ROOK, PUBLIC AFFAIRS DIRECTOR, STEP ONE

    Ms. Rook. Thank you. Thank you for your commitment to 
treatment as part of the solution, and thank you for the 
opportunity to speak with you today.
    As a recovery advocate, my commitment is to break the 
silence of addiction and show the success of recovery. I'm 
grateful to testify as part of the solution. For years I was 
part of the problem. It's particularly nice to be in a room 
with police officers and not have to worry about getting 
busted.
    I am an addict, an alcoholic, and I've been in recovery for 
over 5 years. When someone is in active addiction, we're very 
visible as part of the problem. You've heard that today.
    Mr. Chairman, you talked about the emerging threat. I'm 
here to tell you, it's the same problem; it's just a new drug. 
And you're going to keep having hearings like this again and 
again and again.
    Nearly two decades of scientific research makes it 
increasingly clear that addiction erodes a person's ability to 
control behavior. Therefore, if you ever hope to correct the 
behavior that causes all of the social problems, you must 
address the fundamental issue, and that is addiction.
    Sheriff McCroskey pointed out that addiction treatment 
failures are very high. Treatment failures for addiction of 
methamphetamines are very high. That's true. I would like to 
suggest that we have a gap in our social system. We have 
prevention, we have treatment, and we have criminal justice. 
There is a spot in there from early use and experimentation 
that is not addressed, that does not fall into prevention 
because you're not preventing use. It doesn't qualify for 
treatment because you're not addicted.
    I'll use my case as an example. Consider, first, the issue 
of voluntary choice and when that choice is made, the age of 
that choice. Certainly, people choose to use drugs. Very seldom 
are they forced to. I chose to use drugs. I was 13 years old. 
Within 2 years I was drinking and getting high every day: 
marijuana, PCP, alcohol, hash, speed, LSD, methamphetamines. My 
parents caught me and tried to control my actions by taking me 
out of school, home schooling me, no television, no radio, no 
phone calls to friends, keeping very close watch on me. 
External controls produced forced abstinence. Forced abstinence 
is not treatment. Use will begin the cycle again.
    I started college at 16. By 18 I was living the double life 
of many successful addicts: active on the George Mason 
University debate team, student government, school paper. I got 
good grades, a B+ average, and I was addicted to speed. I had 
to take two hits of 12-hour time-released speed, prescription 
speed, just to get out of bed. When I didn't have the money for 
that, I switched to bootleg speed, meth.
    A guy I was living with got so disgusted with my behavior 
and what was happening, he locked me into a room and wouldn't 
let me out until I detoxed. That experience scared me so 
badly--I was just about to start shooting up--that experience 
scared me so badly, I stayed away from speed. Forced abstinence 
or the unavailability of the drug is not treatment. Without 
treatment, and more particularly the tools to stay in recovery, 
it is only a matter of time before use and the cycle begins 
again.
    My first reporting jobs were covering the police beat. I 
couldn't use illegal drugs and cover the cops. So I stayed away 
from the hard drugs. I kept drinking, kept smoking marijuana. 
Eventually, I did, of course, go back to using illegal drugs 
and my particular drugs of choice: the speed-up drugs, speed 
and cocaine. My life looked great on the outside, moving to CNN 
at age 25, moving up in the ranks until getting my own show, 
``CNN's Talk Back Live.'' My disease also progressed.
    At 35 I overdosed. CNN paid for in-patient addiction 
treatment when my insurance ran out. The support of CNN 
management was critical. I was told in treatment that I was not 
a bad person, but that I had a really bad disease and there was 
hope; recovery was available.
    You don't see people in recovery much because we now have 
the option of being invisible. I talked to the sheriff before 
the hearing, and he said, ``Treatment doesn't work for you 
people.'' I'm here to tell you it does, but you don't see 
people who are in recovery because we pass normal. We no longer 
go to emergency rooms. We no longer go to prisons. We no longer 
have meth labs. We no longer destroy families. We do pretty 
much normal things, like getting us stuck in traffic and mowing 
our lawns. You don't see us because we no longer stand out and 
have the option of hiding.
    People who do not have experience with addiction don't know 
that doing these simple, adult, responsible things actually 
represents growth, an enormous amount of work on our part. My 
story is visible, and I chose to come forward and speak out 
about this, but there are millions of people just like me out 
there. Some are fortunate enough to be given the opportunity to 
receive treatment and enter into recovery.
    As we talk about the continuum from first use until 
addiction, I started at 13. I was not given treatment. 
Currently, 16 percent of adolescents across the Nation--16 
percent--who need treatment get treatment. In North Carolina, 
where I work at a local nonprofit, that number is less than 5 
percent. If you want to do anything about the long-term drug 
problem in the United States, pass parity for teenagers, so 
they can get the separation from the drugs and alcohol long 
enough to even begin to hear the conversation that recovery is 
possible and hope is available.
    I talk to so many teenagers. Perhaps the sheriff is right 
and the adults are just frustrating and the brains are fried. 
Maybe just write them off. I'm grateful somebody didn't write 
me off.
    [The prepared statement of Ms. Rook follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.141
    
    [GRAPHIC] [TIFF OMITTED] 80843.142
    
    [GRAPHIC] [TIFF OMITTED] 80843.143
    
    [GRAPHIC] [TIFF OMITTED] 80843.144
    
    [GRAPHIC] [TIFF OMITTED] 80843.145
    
    [GRAPHIC] [TIFF OMITTED] 80843.146
    
    [GRAPHIC] [TIFF OMITTED] 80843.147
    
    [GRAPHIC] [TIFF OMITTED] 80843.148
    
    [GRAPHIC] [TIFF OMITTED] 80843.149
    
    [GRAPHIC] [TIFF OMITTED] 80843.150
    
    [GRAPHIC] [TIFF OMITTED] 80843.151
    
    [GRAPHIC] [TIFF OMITTED] 80843.152
    
    [GRAPHIC] [TIFF OMITTED] 80843.153
    
    [GRAPHIC] [TIFF OMITTED] 80843.154
    
    [GRAPHIC] [TIFF OMITTED] 80843.155
    
    [GRAPHIC] [TIFF OMITTED] 80843.156
    
    [GRAPHIC] [TIFF OMITTED] 80843.157
    
    [GRAPHIC] [TIFF OMITTED] 80843.158
    
    [GRAPHIC] [TIFF OMITTED] 80843.159
    
    [GRAPHIC] [TIFF OMITTED] 80843.160
    
    [GRAPHIC] [TIFF OMITTED] 80843.161
    
    [GRAPHIC] [TIFF OMITTED] 80843.162
    
    [GRAPHIC] [TIFF OMITTED] 80843.163
    
    [GRAPHIC] [TIFF OMITTED] 80843.164
    
    [GRAPHIC] [TIFF OMITTED] 80843.165
    
    [GRAPHIC] [TIFF OMITTED] 80843.166
    
    [GRAPHIC] [TIFF OMITTED] 80843.167
    
    [GRAPHIC] [TIFF OMITTED] 80843.168
    
    [GRAPHIC] [TIFF OMITTED] 80843.169
    
    Mr. Souder. Well, thank you very much for coming forward 
and raising a number of these points. I've got a series of 
questions that kind of popped into my head right at the 
beginning.
    First, on the question of parity for teenagers, Congressman 
Ramstad had a bill here in the House on health care parity. Are 
you suggesting, since we haven't been able to move that bill, 
that we might be able to move it better if we just targeted the 
teenagers separately from adults?
    Ms. Rook. Well, for example, I think there's a lot of 
stigma involved in addiction because it is a voluntary choice, 
but I think how the public conversation is looking at it, you 
look at someone who's an adult, a 20, 30, 40-year-old, and you 
say, ``You have a choice about this.'' Well, once the disease 
has progressed to that, no, you actually don't have a choice.
    Looking at it in terms of children somehow shifts the 
conversation, so people are more willing to help a teenager 
than they're willing to help a 30-year-old. Case in point: The 
attorney general in the State of Minnesota, Mike Hatch, just 
filed suit against Blue Cross/Blue Shield charging that the 
insurance company--filed a lawsuit against Blue Cross charging 
that the insurance company was denying coverage to children. 
They settled the case out of court. Blue Cross/Blue Shield 
agreed to pay the State of Minnesota $8.2 million because the 
State picks up the tab when the insurance company doesn't in 
terms of social cost and some treatment cost. They agreed to 
put a three-panel review board on. I mean, basically, the 
insurance company settled the lawsuit. So I think that is an 
indication that perhaps not going for full parity--that's been 
before Congress time and time again, on the House side, on the 
Senate side.
    In North Carolina we have parity legislation every year. 
People look at it, they laugh, and everybody goes home. 
Everybody knows it's not going to pass. I think the same thing 
is happening on the national level, but for the first time a 
legal challenge was made in Minnesota, and the insurance 
company settled.
    Mr. Souder. A second question that came to mind: Early on 
in your testimony, you stated that we have this kind of void. 
You're past being prevented, but before you've been arrested, 
although you could, in effect, become arrested in that stage, 
but assuming you haven't been arrested, and you're not in 
treatment--how would you target that group or even identify 
that group?
    Ms. Rook. Well, several things: First of all, we could 
actually enforce the drinking laws in this country. Nobody 
wakes up at 13 or 14 and says, ``Gosh, I've never had a 
cigarette or a drink of alcohol or any marijuana, but I think 
I'm going to go out and smoke some meth.'' That doesn't happen. 
Initial use is always cigarettes, alcohol, marijuana. It is 
more easily available.
    So, in addition to enforcing what is an obvious problem 
now, we can enforce the laws that are already on the books. 
There's a huge Governors' wives initiative campaign--Governors' 
spouses, sorry--initiative against under-age drinking. That 
will help.
    Just simply publicizing and talking about recovery as a 
possibility instead of--you know, I think that people get 
overloaded with all of the bad news about addiction. Yes, we 
know it's awful, but give people something to go toward instead 
of something to fight against. That's what actually happens in 
recovery.
    The sheriff talked about locking people up for 3 years and 
then they get released from jail and they go out and they use 
again. Do you want to know why? You just took away the drug. If 
you don't replace that, there is a sense of ease and comfort 
that happens when you take drugs that happens immediately. If 
you don't give skills training, a spiritual path, whatever 
works for that particular addict, if that hole that the 
addiction fills is not filled with something else, then the 
addiction will continue. Every child who is using drugs has 
that hole. Fill it with something else. Mentoring programs--I'm 
not sure what Congress can do in that sense, but you can 
certainly allocate more money for prevention and education and 
addiction treatment for teenagers.
    Now all of the prevention programs in the world are fine 
but, here's where they get shortcircuited. Kids go to school. 
My agency, we work with 6,000 kids in the public school system 
in Forsyth County, NC, 6,000 kids. So, great, they're hearing 
that drugs are bad, there's more effective ways to make 
decisions, how to negotiate about drug use. Then we send them 
home to their parents or their family, where their mom's an 
alcoholic or their dad is a drug addict. They can't get 
treatment. The insurance company says, ``Yes, we'll give you 2 
or 3 days detox,'' and then they send you back.
    There's a disconnect. All of this stuff needs to work 
together, and I think one of the key things is rhetorically 
talk about solutions. None of these DEA guys, none of these 
cops talked about any successes that they've seen, anybody who 
has gotten off of methamphetamines. We in the recovery 
community are powerful--powerful--allies for them, double team 
as they go in and talk to kids.
    You know, I double team with teenagers when I go talk to 
kids. I'm 40 years old. Granted, I didn't think I'd live this 
long, but I'm 40 years old. They're not going to listen to me. 
I don't care what my drug use was. I double team with the 
teenager in recovery, and I can say, ``This person is telling 
you what happened at 15 or 16. Now they're no longer using. Let 
me tell you what happened to me, as mine happened for 20 more 
years.''
    Now the drugs that are available nowadays, it's ratcheting 
up the problem and it's ratcheting up the damage. So I think 
one of the key focuses has to be on that early period from 
experimentation to the beginning of addiction, and that is 
quick. I agree with the law enforcement experts: By high school 
it's too late.
    Mr. Souder. It appears that you describe some of what Step 
One is. Could you describe it a little further, what you do and 
what your organization does?
    Ms. Rook. Yes. Step One is a nonprofit. We do prevention, 
intervention, and treatment. We're the Statue of Liberty for 
Forsyth County, NC. We're the place that people go to when they 
don't have any money. We're a United Way agency. We cut and 
paste together funding streams and grants. We go out and beg 
people for money. We're pretty typical of the arena of 
treatment. We do adolescent treatment, adult treatment. We have 
a Spanish component. We have onsite daycare. We just are 
starting one of the few elderly substance abuse programs in the 
United States.
    It is unconscionable that this country is willing to trust 
its No. 1 public health and public safety issue to the sole 
provision of nonprofit agencies that have to worry about how 
we're going to pay our light bills. If you get colon cancer, 
would you put up with your doctor looking at you and saying, 
``Go to a self-help group, pray, and there's a nonprofit down 
the street; go talk to them''? No, you wouldn't think of doing 
that, and yet, we do this with our No. 1 public health problem 
and, as you've heard here today, our No. 1 public safety 
problem.
    Step One is great: treatment, intervention, prevention. Can 
we do it all? No, and we're the one that's doing it for Forsyth 
County. We have to turn people away. It's crazy.
    Mr. Souder. When you said a little bit ago that you felt, 
once you got past high school, it wasn't possible. Obviously, 
your case turned around past high school, but you feel you get 
diminishing returns? Is that in effect--in other words, the 
earlier you reach somebody, the more likely your success in 
treatment is? The later, it's harder?
    Ms. Rook. Absolutely. NIDA and the brain scientists have 20 
years of very good research, and Dr. Lechner of NIDA could 
probably explain this way better than I could. I can tell you 
from my experience, and I've looked at the brain science and 
know a little bit about it. There is a period from use to 
addiction. In that continuum there's a period called heavy use 
and continuous use. At some point--and the scientists actually 
have not been able to pinpoint where that point is, where the 
switch in your brain flips to full-blown addiction--catch 
people before that and before the repetitive pattern of heavy 
and continuous use, and then you are not fighting a brain that 
has been scrambled by methamphetamines or drugs that actually 
makes treatment and negotiating the details of treatment more 
difficult. You have more help from the body because the body is 
not so physically damaged, however long that damage is.
    Mr. Souder. Part of what I am sure the sheriffs were 
reacting to was a pattern that we see in many places that I, 
for example, have met very few drug dealers who haven't been 
through--or heavy users who haven't been through multiple 
treatment programs. Why do you think--I don't want to say, why 
is it so hard? We know why it's hard. What is it--and I know 
there are several key variables, but I would like you to put it 
on the record. What are the reasons some of the treatment 
programs aren't working? Because there's no question that to 
say that they don't work at all is unfair, because we all meet 
people who have completely changed their lives. Drug courts, 
which are a promising approach, probably have about a 50 
percent immediate rate that drops off a little farther long 
term. We're still getting long term--but that's pretty good for 
people who have already been arrested and who are there.
    Furthermore, one of the things that is missed in treatment 
is that, even if the person, they say, well, they failed, they 
got arrested again, the intensity of use and the frequency of 
arrest is often less. But it's hard to argue with the fact that 
most people who commit drug crimes, the high percentage of 
those have gone to treatment.
    So could you describe some of the problems, some of the 
types of treatment? You said abstinence isn't enough because 
there hasn't been a change of heart, a change of attitude about 
it--obviously, short term. What would be some of the variables 
that you see in effective treatment versus less effective 
treatment?
    Ms. Rook. Two points about that: First, the definition of 
treatment is not uniform. Two or 3 days detox in a local 
hospital psych ward is not treatment. Treatment is a psycho-
educational, behavioral, and medical continuum of care. Studies 
have shown that the longer you stay in treatment, the better 
the outcomes. But, due to insurance restrictions, people are 
discharged at now less than a week, if they are lucky enough to 
go. Very few people have in-patient treatment available to 
them. That in-patient treatment makes all the difference in the 
world. CNN paid for the last 3 weeks of my in-patient 
treatment. I am convinced that, had I been discharged at 5 
days, I would have relapsed.
    So what we have is we've set up a rhetorical conversation 
saying, treatment doesn't work. Well, we're not treating 
people, first of all. If you go into the hospital for 
hypertension and the doctor puts you on a particular blood 
pressure medication, and you have to go back into the hospital 
several years--let's use Cheney for an example. My goodness, if 
his doctor had looked at him and said, ``Gosh, you've still got 
heart problems. The treatment isn't working. Well, we're just 
going to write you off''--a perfect example. Why do we use a 
different standard when we're talking about treatment of 
addiction?
    Treatment rates of addiction are actually higher because of 
the behavioral component. There is a behavioral component to 
addiction. Treatment effectiveness and outcomes are actually at 
or above other diseases that have the behavioral component. For 
example, hypertension: food, diet, exercise contribute to the 
course of the illness. Diabetes, asthma, all of those require 
patient participation for effective treatment, and yet, we look 
at addiction and say, ``Well, if you don't get it the first 
time, you must be resistant.'' No. Each time the person goes to 
treatment there is a higher percentage that time it will 
succeed.
    Mr. Souder. Well, as you have been hearing, we have another 
vote on. I appreciate your comments, your patience with us 
today, and it is important that any record we have of any drug 
subject we're trying, as much as possible, to work the 
treatment component in, so those who go through the hearing 
records and use this as a resource on meth--let me ask you one 
additional question. Have you dealt with, or are you familiar 
with, efforts to treat meth, in particular, and how meth 
treatment differs from other treatment? Has it been more 
difficult? Have you seen success stories related to that as 
well?
    Ms. Rook. We are not seeing in North Carolina meth showing 
up at treatment centers yet. In 1999, the State Bureau of 
Investigations busted a half dozen labs. In 2000, it was a 
dozen. In the first 6 months of this year, it was 13. So we 
will begin to see the results of these meth labs.
    I can tell you of my personal experience. There's a young 
man that I know that used to manufacture, distribute, and use 
meth who's now in school and sober. It does work. For 
everybody? No. But what are your options? What you're doing now 
isn't working.
    Mr. Souder. Well, I thank you. I think that one strong 
point you made--and it is, quite frankly, true in every area of 
this, and I am kind of a holistic approach person. To say this 
for the record: that what we're doing now in all areas is both 
working and not working. In treatment, there are reasons and 
cases working and not working. In Plan Columbia, there are 
things that are working and that are not working. In the border 
control, there are things that are working and not working. I 
happen to believe that we are never going to change completely, 
which I believe from my personal faith is a matter of sin, but 
you can control and manage and limit the number of people who 
get involved in different things by giving alternatives and 
working with them.
    We tried to improve the prevention programs in the recent 
drug-free schools thing. We are working with reauthorization of 
the community efforts in anti-drugs. We are trying to support 
the treatment efforts. We are trying to work on 
methamphetamine. Through a holistic effort, I think we can 
continue to have a higher percentage of success stories, but, 
ultimately, we are never going to eliminate poverty in America. 
We are never going to eliminate parents who ignore their kids. 
We are never going to eliminate self-esteem problems that kids 
have in America or a range of problems. But we can try to 
manage it and make it better and give more people an 
opportunity to escape.
    So thank you for your efforts with Step One, your 
willingness to go public, your willingness to make sure that 
our record today has the treatment component to it, as well as 
your patience this morning.
    Ms. Rook. Thank you, sir, and I just want to add that that 
holistic approach, that will work. It will work. And you, I 
really appreciate. This is one of the first times--I mean, this 
signals a national ``sea change'' in the conversation, that 
treatment and recovery and the success of recovery is part of 
this conversation. Thank you.
    Mr. Souder. Thank you very much. And with that, our hearing 
stands adjourned.
    [Whereupon, at 1:04 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Bob Barr follows:]
    [GRAPHIC] [TIFF OMITTED] 80843.170
    
    [GRAPHIC] [TIFF OMITTED] 80843.171
    
                                   - 

</pre></body></html>
